<html>
<title> - VIOLENT AND EXPLICIT VIDEO GAMES: INFORMING PARENTS AND PROTECTING CHILDREN</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                     VIOLENT AND EXPLICIT VIDEO 
                   GAMES: INFORMING PARENTS AND 
                        PROTECTING CHILDREN
----------------------------------------------------------------------

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON COMMERCE, TRADE, 

                        AND CONSUMER PROTECTION

                                OF THE 

                       COMMITTEE ON ENERGY AND 
                               COMMERCE
                       HOUSE OF REPRESENTATIVES

                      ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                              JUNE 14, 2006

                           Serial No. 109-105 

       Printed for the use of the Committee on Energy and Commerce 

Available via the World Wide Web:  http://www.access.gpo.gov/congress/house



                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

29-893 PDF              WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001




COMMITTEE ON ENERGY AND COMMERCE
JOE BARTON, Texas, Chairman
RALPH M. HALL, Texas
MICHAEL BILIRAKIS, Florida
  Vice Chairman
FRED UPTON, Michigan
CLIFF STEARNS, Florida
PAUL E. GILLMOR, Ohio
NATHAN DEAL, Georgia
ED WHITFIELD, Kentucky
CHARLIE NORWOOD, Georgia
BARBARA CUBIN, Wyoming
JOHN SHIMKUS, Illinois
HEATHER WILSON, New Mexico
JOHN B. SHADEGG, Arizona
CHARLES W. "CHIP" PICKERING,  Mississippi 
  Vice Chairman
VITO FOSSELLA, New York
ROY BLUNT, Missouri 
STEVE BUYER, Indiana
GEORGE RADANOVICH, California
CHARLES F. BASS, New Hampshire
JOSEPH R. PITTS, Pennsylvania
MARY BONO, California
GREG WALDEN, Oregon
LEE TERRY, Nebraska
MIKE FERGUSON, New Jersey
MIKE ROGERS, Michigan
C.L. "BUTCH" OTTER, Idaho
SUE MYRICK, North Carolina
JOHN SULLIVAN, Oklahoma
TIM MURPHY, Pennsylvania
MICHAEL C. BURGESS, Texas
MARSHA BLACKBURN, Tennessee
JOHN D. DINGELL, Michigan
  Ranking Member
HENRY A. WAXMAN, California
EDWARD J. MARKEY, Massachusetts
RICK BOUCHER, Virginia
EDOLPHUS TOWNS, New York
FRANK PALLONE, JR., New Jersey
SHERROD BROWN, Ohio
BART GORDON, Tennessee
BOBBY L. RUSH, Illinois
ANNA G. ESHOO, California
BART STUPAK, Michigan
ELIOT L. ENGEL, New York
ALBERT R. WYNN, Maryland
GENE GREEN, Texas
TED STRICKLAND, Ohio
DIANA DEGETTE, Colorado
LOIS CAPPS, California
MIKE DOYLE, Pennsylvania
TOM ALLEN, Maine
JIM DAVIS, Florida
JAN SCHAKOWSKY, Illinois
HILDA L. SOLIS, California
CHARLES A. GONZALEZ, Texas
JAY INSLEE, Washington
TAMMY BALDWIN, Wisconsin
MIKE ROSS, Arkansas


BUD ALBRIGHT, Staff Director
DAVID CAVICKE, General Counsel
REID P. F. STUNTZ, Minority Staff Director and Chief Counsel 


SUBCOMMITTEE ON COMMERCE, TRADE, AND CONSUMER PROTECTION 
CLIFF STEARNS, Florida, Chairman 
FRED UPTON, Michigan 
NATHAN DEAL, Georgia 
BARBARA CUBIN, Wyoming 
GEORGE RADANOVICH, California 
CHARLES F. BASS, New Hampshire 
JOSEPH R. PITTS, Pennsylvania 
MARY BONO, California 
LEE TERRY, Nebraska 
MIKE FERGUSON, New Jersey 
MIKE ROGERS, Michigan 
C.L. "BUTCH" OTTER, Idaho 
SUE MYRICK, North Carolina 
TIM MURPHY, Pennsylvania 
MARSHA BLACKBURN, Tennessee 
JOE BARTON, Texas 
  (EX OFFICIO) 
JAN SCHAKOWSKY, Illinois 
  Ranking Member 
MIKE ROSS, Arkansas 
EDWARD J. MARKEY, Massachusetts 
EDOLPHUS TOWNS, New York 
SHERROD BROWN, Ohio 
BOBBY L. RUSH, Illinois 
GENE GREEN, Texas 
TED STRICKLAND, Ohio 
DIANA DEGETTE, Colorado 
JIM DAVIS, Florida 
CHARLES A. GONZALEZ, Texas 
TAMMY BALDWIN, Wisconsin 
JOHN D. DINGELL, Michigan 
  (EX OFFICIO) 

CONTENTS 


Page 
Testimony of: 

Parnes, Lydia, Director, Bureau of Consumer Protection, Federal 
Trade Commission 22 Severson, Gary, Senior Vice President, 
Merchandising, Wal-Mart Stores, Inc. 32 Lowenstein, Douglas, 
President, Entertainment Software Association 39 
Vance, Patricia E., President, Entertainment Software Rating Board 
88 
Thompson, Dr. Kimberly M., Director, Kids Risk Project, Associate 
Professor of Risk Analysis and Decision Science, Department of 
Health Policy and Management, Harvard University 118 Buckleitner, 
Dr. Warren, Ph.D., Editor, Children's Technology Review	123 
Walsh, Dr. David, Ph.D., President, National Institute on Media 
and the Family	128 
Additional material submitted for the record: 

Andersen, Crossan R., President, Entertainment Merchants Association, 
prepared statement of	147 
Tripodi, Cynthia Merifeld, Executive Director, Pause Parent Play, 
prepared statement of	153 



VIOLENT AND EXPLICIT VIDEO GAMES:  INFORMING PARENTS AND PROTECTING 
CHILDREN 


WEDNESDAY, JUNE 14, 2006 

HOUSE OF REPRESENTATIVES,
COMMITTEE ON ENERGY AND COMMERCE,
SUBCOMMITTEE ON COMMERCE, TRADE, 
AND CONSUMER PROTECTION,
Washington, DC.


The subcommittee met, pursuant to notice, at 2:39 p.m., in Room 2123 
of the Rayburn House Office Building, Hon Cliff Stearns [Chairman] 
presiding. 
Present:  Representatives Stearns, Upton, Radanovich, Bass, Pitts, 
Terry, Murphy, Blackburn, Barton (ex officio), Schakowsky, Markey, 
Towns and Baldwin. 
Also Present:  Representative Matheson. 
Staff Present:  David Cavicke, General Counsel; Chris Leahy, Policy 
Coordinator; Will Carty, Professional Staff Member; Billy Harvard, 
Legislative Clerk; Jonathan Cordone, Minority Counsel; and David 
Vogel, Minority Research Assistant. 
MR. STEARNS.  Good afternoon.  The subcommittee will come to order. 
My colleagues, the rise of computer and video games as mainstream 
entertainment has been nothing short of meteoric.  U.S. computer 
and video game software sales reached almost $10.5 billion in 2005, 
and more than double that since 1996.  Worldwide computer and video 
games sales have hit over $30 billion.  And, according to PriceWaterhouseCoopers, the global revenue of video game companies 
could reach over $55 billion in 2008, easily surpassing that of the 
music industry at $33 billion.  
While it is a global business, the U.S. computer and video game 
industry continues to be the benchmark for innovation.  This 
spectacular rise of the video game juggernaut is not hard to 
understand when you see the creativity, the educational value, and 
the sheer fun the vast majority of games offer to gamers of every 
age, especially children, who are still the core market for this 
burgeoning industry.  
According to the Entertainment Software Association, games created 
for children age 17 and under constitute over 80 percent of the 
titles rated by the Entertainment Software Rating Board, or ESRB.  
However, I also note that the top-selling game in 2004 was now the 
infamous Grand Theft Auto San Andreas, which is rated by ESRB as "M" 
for "Mature" audience, indicating that the game's content is 
inappropriate for children under 17 years of age.  Grand Theft Auto 
sold 5.1 million units in 2004, and pushed out Madden NFL Football 
from the number one spot.  Madden NFL Football was rated "E" for 
"Everyone" by ESRB, suitable for children 6 years and older.  
"Mature"-rated games continue to be top sellers, and continue to 
push the limits of violence and sexually explicit content every 
year.  Grand Theft Auto, which we will show a few clips from later, 
includes scenes that allow players to make drug deals, solicit 
prostitutes, gun down and bludgeon and mutilate police and EMS 
workers.  And as a finale, they can fly a plane into a skyscraper. 
 Now, I hardly call that educational or creative.  
This is not just a game.  Building a video game around a premise 
based on very realistic cold-blooded assassination of innocent 
bystanders and police, the same law enforcement community that 
stands guard outside the doors of this hearing for our own 
protection, is not entertainment, in our opinion.  This sort of 
twisted homicidal imagery is more akin to hate speech, not free 
speech.  It targets those who are innocent, it stereotypes, it 
incites hate, and it breeds disrespect for those who are serving 
to protect all of us.  
Free speech is a constitutionally protected right, but when it 
involves very suspect expressions, expressions that are more akin 
to cultural pollution than art, it requires responsible and discreet 
execution.  The costs our children must bear are too great.  
But we are not here today to debate the constitutional issue 
surrounding violent and explicit video games.  We are here, my 
colleagues, to investigate some pretty simple and commonsense 
issues: whether parents are getting all the information they need 
and deserve to make decisions about the purchase of video and 
computer games, the process by which games are rated, and to what 
extent those games with "M"-rated or "Mature" content are policed 
at the retail level both on and off line.  These are the elements of 
consumer protection required to protect our most vulnerable and 
valuable consumers, our children.  
This committee and this consumer protection subcommittee has a long 
and venerable record protecting children, whether it be from on-line 
pornography, indecency in broadcasting, or, in this case, from 
certain video games that have no place near children and should be 
banished to a secure adults-only location, and the video game 
equivalent of a red-light district.  
In addition, my colleagues, a new phenomenon of hidden code and mods 
is another disturbing development that came to light in the Grand 
Theft Auto case, and it involves the ability to modify an existing 
game's underlying code with a downloadable program that can unlock 
hidden violence and sexually explicit content into the game.  Such 
practices attempt to circumvent the rating process and again 
demonstrate the sophistication and stealth of the ways inappropriate 
content can be delivered to our children. 
This type of virtual reality, violence, and sexual content 
undermines the efforts of parents as responsible caregivers to their 
children.  Parents should not be required to defend constantly 
against the increasing media and marketing onslaught of excessively 
violent and sexually explicit video and computer games.  
Media, marketing, and a delivery technology, computers, PDAs, and 
cell phones have become omnipresent in and outside the home.  More 
needs to be done by the industries involved which have the money, 
they have the resources and expertise to better protect our 
children.  Ratings need to be cleaner, clearer, and more 
universal.  
Hidden content and the use of mods to evade ratings need to be met 
with more severe penalties.  Retail stores need to be more vigilant 
in how they verify the age of customers both on line and at the 
point of sale.  Technology, though, can do a lot.  For example, 
parental control technologies like those found on the Microsoft 
X-Box allowing playing consoles to read ratings and allow parents 
to prohibit certain content from being played even if the child has 
it in hand.  And this is progress.  
I also very strongly urge the Federal Trade Commission to report to 
Congress on the Grand Theft Auto controversy as requested by 
congressional resolution last summer, and it should start getting 
tough with these companies like Take Two Interactive that flout the 
law and continue to exploit our kids with violence and hate.  
And finally, my colleagues, as they say, a picture is worth a 
thousand words.  After Members' opening statements, I would like to 
show some clips from Grand Theft Auto, the number one selling game 
of 2004, that have been meticulously edited to remove some of the 
more extreme sexual content, but still contain some very disturbing 
violent content.  This should give us a sense of what constitutes 
a "Mature" or "M" rating under the ESRB system, and perhaps will 
make us wonder how bad things need to be to warrant an adults only 
or "AO" mark, a brand that would take this pollution out of 
mass-media and retail outlets that are frequented by our children 
and take the profit out of peddling violence and sex to our 
children.  
So I would like to thank the witnesses for being here.  I know the 
sacrifice they had to make for their presence, and their views and 
their testimony are obviously appreciated. 
[The prepared statement of the Hon. Cliff Stearns follows:] 

PREPARED STATEMENT OF THE HON. CLIFF STEARNS, CHAIRMAN, SUBCOMMITTEE 
ON COMMERCE, TRADE, AND CONSUMER PROTECTION 

Good afternoon.  The rise of computer and video games as mainstream 
entertainment has been nothing short of meteoric.  U.S. computer and 
video game software sales reached almost $10.5 billion in 2005 - 
more than double since 1996.  Worldwide, computer and video game 
sales have hit over $30 billion.  And according to Price Waterhouse 
Coopers, the global revenue of video game companies could reach over 
$55 billion in 2008 -- easily surpassing that of the music industry 
at $33 billion.  While it is a global business, the U.S. computer 
and video game industry continues to be the benchmark for 
innovation. 
The spectacular rise of the video game juggernaut is not hard to 
understand when you see the creativity, educational value, and fun 
the vast majority of games offer to gamers of every age - ESPECIALLY 
children, who are still the core market for this burgeoning 
industry.  According to the Entertainment Software Association, 
games rated for children (age 17 and under) constitute over 80% of 
the titles rated by the Entertainment Software Rating Board or 
"ESRB."  I, however, also note that the top selling game in 2004 was 
the now infamous Grand Theft Auto San Andreas, which is rated by the 
ESRB as "M" for mature - indicating that the game's content is 
inappropriate for children under 17 years old.  Grand Theft Auto 
sold 5.1 million units in 2004 and pushed out Madden NFL Football 
from the number one spot.  Madden NFL Football was rated "E" for 
everyone by the ESRB -- suitable for children 6 years and older. 
Mature rated games continue to be top sellers and continue to push 
the limits of violent and sexually explicit content every year.  
Grand Theft Auto, which we will show a few clips from later, 
includes scenes that allow players to make drug deals, solicit 
prostitutes, gun down, bludgeon, and mutilate police and EMS 
workers, and as the finale, fly a plane into a skyscraper.  I 
hardly call that fun, educational, or creative.  This is not 
"just a game."  Building a video game around a premise based on 
very realistic, cold-blooded assassinations of innocent bystanders 
and police - the same law enforcement community that stands guard 
outside the doors of this hearing room for our protection- is not 
entertainment.  This sort of twisted, homicidal imagery is more akin 
to hate speech, not free speech.  It targets those who are innocent, 
it stereotypes, it incites hate, and it breeds disrespect for those 
who serve to protect.  
Free speech is a constitutionally protected right, but when it 
involves very suspect expressions - expressions that are more akin 
to cultural pollution than art - it requires responsible and 
discrete  execution.  The costs our children must bear are too great. 
 But we are not here today to debate the constitutional issues 
surrounding violent and explicit video games.  We ARE here to 
investigate some pretty simple and common sense issues: whether 
parents are getting all the information they need and DESERVE to 
make decisions about the purchase of video and computer games, the 
process by which games are rated, and to what extent those games 
with "M"-rated or "mature" content are policed at the retail 
level- both on and off-line.  These are the elements of consumer 
protection required to protect our most vulnerable and valuable 
consumers - our children.  This Committee and this Consumer 
Protection Subcommittee has a long and venerable record protecting 
children -whether it be from on-line pornography, indecency in 
broadcasting, or in this case, from certain video games that have 
no place near children and should be banished to a secure, 
"adults-only" location - the video game equivalent of the red-light 
district.  
 	In addition, the new phenomenon of hidden code and "mods" is 
another disturbing development that came to light in the Grand Theft 
Auto case and involves the ability to modify an existing game's 
underlying code with a downloadable program that can unlock hidden 
violent and sexually-explicit content in the game.  Such practices 
attempt to circumvent the ratings process and again demonstrate the 
sophistication and stealth of the ways inappropriate content can be 
delivered to our children.  
This type of "virtual reality" violence and sexual content 
undermines the efforts of parents as responsible caregivers to their 
children.  Parents should not be required to defend constantly 
against the increasing media and marketing onslaught of excessively 
violent and sexually explicit video and computer games.  Media, 
marketing, and delivery technology (computers, PDAs, cell phones)
have become omnipresent in and outside the home.  More needs to be 
done by the industries involved, which have the money, resources, 
and expertise to better protect children.  Ratings need to be 
clearer and more universal.  Hidden content and the use of "mods" 
to evade ratings need to be met with more severe penalties.  Retail 
stores need to be more vigilant in how they age verify customers - 
both online and at point of sale.  Technology can do a lot.  For 
example, parental control technologies, like those found on the 
Microsoft X-Box, allow playing consoles to read ratings and allow 
parents to prohibit certain content from being played even if a 
child has it in hand.  This is progress.  I also very strongly urge 
the FTC to report to Congress on the Grand Theft Auto controversy, 
as requested by congressional resolution last summer, and start 
getting tough with companies like Take Two Interactive that flout 
the law and continue to exploit our kids with violence and hate.  
And finally, as they say, a picture is worth a thousand words.  
After member opening statements, I would like to show some clips 
from Grand Theft Auto -the number one selling game of 2004-- that 
have been meticulously edited to remove some of the more extreme 
sexual content but still contain some very disturbing violent 
content.  This should give us a sense of what constitutes a "mature" 
or "M" rating under the ESRB system and perhaps will make us wonder 
how bad things need to be to warrant an "adults only" or "AO" mark - 
a brand that would take this pollution out of our mass media and 
retail outlets frequented by our children and take the profit out 
of peddling violence and sex to our kids.  I'd like to thank the 
witnesses before us today for their presence and views.  Your 
testimony is greatly appreciated. 
Thank you. 

MR. STEARNS.  With that, I recognize the Ranking Member Ms. 
Schakowsky.  
MS. SCHAKOWSKY.  Thank you, Chairman Stearns.  Thank you for 
holding today's hearing on the violent and explicit materials in 
video games.  I appreciate the chance to further understanding how 
these games are marketed, sold, and what is being done to keep them 
out of the hands of children.  
While I am a very strong proponent of free speech, and there are 
many educational and wholesome games on the market, I am no fan of 
the games that glorify killing and other forms of violence, 
including rape.  Games with such content are irresponsible and 
dangerous, and have no place in a civil society.  
The only thing that is as riling as those who make a business out of 
creating those deplorable games are those who make profit off of 
selling them to children.  I am especially concerned about those who 
in their zeal to make a buck allow for massive loopholes that make 
it easy for those who are under 17 to get ahold of games rated 
"Mature" or above without their parents' knowledge or consent.  For 
instance, it is as easy as a click of the mouse to get 
"Mature"-rated video games on line from stores like Wal-Mart.  All 
one needs to do to get their copy of Grand Theft Auto from 
Wal-Mart's Web site is to check a box that certifies, quote, that 
the person ordering is older than 17.  With 13-year-olds being 
issued credit cards or having ready access to their parents' that 
age verification is a joke.  For a so-called family-friendly store 
that won't carry music with "parental advisories" on the label, that 
is quite a double standard.  Tell me, how does selling violent game 
to minors fit with Wal-Mart's claim that it is being responsible?  
But having lax protections in place to stop the children under 17 
years old from buying games rated "Mature" is not a unique 
phenomenon to on-line purchasing.  According to the Federal Trade 
Commission, mystery shopping investigations that send 13 to 
16-year-olds unaccompanied into stores, 42 percent of these children 
were able to buy "M"-rated games.  Sadly, this is an improvement 
from 69 percent in 2003, but definitely no reason to celebrate it.  
And I look forward to your testimonies.  
I believe that for voluntary standards ratings to be effective, we 
have to make sure that they are enforced, from the raters of the 
games to the checkout counter.  While I don't condone these games, 
we need to make sure that parents are getting all the information 
they need, and that they have the chance to be involved in deciding 
what is appropriate for their children.  
I very much look forward to hearing from our witnesses.  I want to 
learn more about how these games are rated, how they are marketed, 
and to whom; who is making profit from them, what retailers have to 
say about selling to under-aged children without parental approval, 
and what they are going to do about it.  Thank you.  
MR. STEARNS.  I thank the gentlelady.  
I know recognize the Chairman of the full committee, Mr. Barton from 
Texas.  
CHAIRMAN BARTON.  Thank you, Chairman Stearns, for holding this 
hearing.  I am looking forward to hearing from our distinguished 
list of witnesses, and we have several distinguished guests in the 
audience, and I hope at the appropriate time they might be 
introduced.  
But I am very glad that we are holding this hearing.  I think it is 
an important hearing.  I hope that the parents of America are paying 
close attention.  Last year it was revealed that there was an 
explicit sexual scene hidden inside a video game called Grand Theft 
Auto San Andreas.  It turns out that was one of the best-selling 
games of the year.  This content was not disclosed to the industry's 
rating board, so the game did not receive the adults-only rating 
that it deserved.  So when we found out about it, we passed a 
resolution asking that the FTC look into the production and marketing 
of that particular game.  That was about a year ago.  The Federal 
Trade Commission has still not given a report formally to the 
Congress.  Hopefully we will get some glimmer of what they found 
out in today's hearing.  But I think, given the sensitivity of the 
issue, it is not an acceptable practice by the FTC to respond in 
such a tardy fashion.  
We are going to see in a few minutes some clips of this game, the 
Grand Theft Auto game.  What we are going to see will show policemen 
being killed, drug dealing, and drive-by shootings.  Apparently that 
is acceptable.  It is representative of the content of some 
mature-only games.  There are lots of other scenes we are not going 
to see simply because this is a public hearing.  
It is true that "Mature" and "Adult-Only" games are a relatively 
small percentage of the games on the market, but unfortunately they 
appear to be some of the most popular games and are accounting for a 
disproportionately large percentage of total sales.  
I will have to confess, Mr. Chairman, that I am also a video game 
player.  I have worked my way up to Civilization Four.  I haven't 
yet been able to beat it, but I at least understand the fundamentals 
of it.  I think that game is an "E" game, which means that anybody 
can play it.  
Given the fact that the industry is booming and that more games are 
being purchased than ever before, over $10 billion last year, it is 
 imperative, in my opinion, that parents are informed about the 
content of the games that their children are playing.  I have two 
stepchildren that are teenagers, and they are playing video games; 
I have three grandchildren, two of which are playing video games; 
and I have an infant son who will soon within the next 2 to 3 years 
almost certainly be game-playing himself.  
So this is of a personal interest to me, and I am fed up with games 
like Grand Theft Auto being marketed under false pretenses.  I have 
got no problem if it is an adults-only game and it is sold in the 
appropriate adults-only venue.  If adults want to buy it, that is 
their privilege as Americans in a free society.  But more violent 
and more sexually oriented games that are made available to the 
general public, in my opinion, is simply not acceptable.  
So I want to thank you, Mr. Chairman, for holding this hearing.  
I look forward to hearing the witnesses.  And hopefully, on a 
bipartisan-basis, if legislation is needed to clean up this mess, 
I am sure that you will lead the way, and I will be one of your 
most stalwart soldiers.  
MR. STEARNS.  I thank the Chairman.  
[The prepared statement of the Hon. Joe Barton follows:] 

PREPARED STATEMENT OF THE HON. JOE BARTON, CHAIRMAN, COMMITTEE ON 
ENERGY AND COMMERCE 

Good afternoon.  Thank you, Chairman Stearns, for holding this 
hearing.  It is important that parents pay close attention to the 
entertainment that their children are watching and listening to, and 
this examination of the video game industry and its rating system 
is an important part of that process. 
Last year, controversy erupted when it was revealed that an explicit 
sexual scene was "hidden" inside a video game called Grand Theft 
Auto: San Andreas, which was one of the best-selling games of the 
year.  This content was not disclosed to the industry's rating 
board, and therefore the game did not receive the "Adults Only" 
rating it deserved-the rough equivalent of an NC-17 movie rating. 
Subsequently, we in Congress passed a resolution asking that the FTC 
look into the production and marketing of the game.  As of now-almost 
a full year later-the Commission has not explained what they have 
done.  This is simply unacceptable, and I hope that today the FTC 
will tell us specifically what the investigation has uncovered. 
In a few minutes, we will show a short compilation of clips from 
Grand Theft Auto showing cop killing, drug dealing, and drive-by 
shootings.  While it is representative of the content of some 
"Mature"-rated games, there are a lot of other scenes in these 
games that we simply cannot show in a public hearing.  It is true 
that "Mature" and "Adult Only" games are a relatively small 
percentage of the games on the market, but they are some of the 
most popular games and account for a disproportionately large 
percentage of total sales.  Given the fact that the industry is 
booming and more games are being purchased than ever before-over 
$10.5 billion in sales in 2005-it is imperative that parents are 
informed about the content in the games that their children are 
playing. 
The industry should be commended for developing a rating system 
voluntarily, and recent FTC studies have shown that retailers are 
doing a better job educating their customers and checking ID when 
selling more mature games.  But not nearly enough has been done.  
The Grand Theft Auto debacle exposed a serious problem with the 
rating process, and many have argued that the ratings themselves 
are not appropriately defined.  Consumers must have confidence in 
the ratings and those ratings must mean what they say.  Also, last 
year's study showed that unaccompanied teenagers were denied 
"M-rated" games only 58 percent of the time.  While that is a huge 
increase from 2000, it is not nearly good enough.  Retailers, large 
and small, and the industry itself must behave more responsibly. 
I understand that there have been efforts on the part of some state 
and local legislative bodies to regulate access to games.  I also 
understand that all of these efforts have been ruled to be 
unconstitutional by the Courts.  The purpose of this hearing, 
however, is to have a comprehensive discussion about whether parents 
are getting the information they need to make educated choices for 
their children.  I believe that is in the best interest of consumers 
AND the industry. 
I want to welcome Ms. Parnes of the Consumer Protection Bureau of the 
FTC, and thank her for coming in to discuss the Commission's work in 
this area.  I also want to thank the rest of our witnesses for 
their participation today, and I look forward to learning more about 
the industry, its ratings, and its marketing. 
Thank you, and I yield back the balance of my time. 

MR. STEARNS.  Ms. Baldwin.  
MS. BALDWIN.  Thank you, Mr. Chairman.  I appreciate the fact that 
you are holding this important and timely hearing on violent and 
sexually explicit video games and how we can best protect our 
children from them.  
It has been almost a year since the media first reported a secret 
sexually explicit minigame that was embedded in the game Grand Theft 
Auto San Andreas.  Through installing a third-party program called 
Hot Coffee available on line, game players were able to access the 
embedded content, which was not originally disclosed to the 
Entertainment Software Rating Board, or ESRB.  
Subsequently, the Federal Trade Commission initiated an investigation 
into the game, and just last week published a settlement with the 
developers of Grand Theft Auto, Take Two Interactive, and Rockstar 
Games.  The settlement, if made final following a 30-day comment 
period, would require the companies to disclose all playable or 
nonplayable content of a game relevant to the game's rating, as well 
as requiring the companies not to misrepresent the rating or content 
descriptors for a game.  The companies would be fined $11,000 per 
violation if they did not comply with reporting and game 
requirements.  I believe these are constructive first steps in 
ensuring that video game developers operate in a socially 
responsible and consumer-friendly manner.  
I know the Entertainment Software Rating Board has been working 
hard to improve its rating system and aggressively working with 
retailers to reduce the sale or rental of "Mature"-rated games to 
minors without parental consent.  I am especially heartened by the 
fact that game console manufacturers have provided 
password-protected parental control technology to prevent games 
with inappropriate ratings from being loaded onto their 
next-generation video game consoles.  I applaud the industry for 
taking self-regulation seriously, because incidents such as the Hot 
Coffee minigame are not only bad for publicity, they are bad for 
business, and they are bad for our children.  
Nevertheless, we know that much more needs to be done.  There are 
financial incentives for game makers not to be cooperative.  
Indeed, there is no question that in some instances a "Mature" 
rating for a game drives interest and sales of that game.  While a 
game rated "Adult Only" or "AO" is automatically rejected by many 
retailers, it is not difficult to imagine that a company would 
downplay or misrepresent the content of a game to receive a "Mature" 
rating when, in fact, the game more closely resembles the violent 
and sexual content found in an "AO" game and should have received 
the "AO" rating.  Which begs the question are the ESRB ratings truly 
based on content, or is the content of the game driven by ratings?  
And I hope our panelists will refer to that and speak to that.  
Finally, I want to emphasize that in ensuring video games are 
available to consumers in a responsible way, we must be careful not 
to trample on first amendment rights of the game creators.  Indeed, 
every Federal court that has ruled on State laws prohibiting the 
sales of violent or sexually oriented video games to minors has 
found such statutes unconstitutional.  And that is why I believe 
that self-regulation remains the best method in providing 
information to parents about the game's content.  For that same 
reason, it is all the more important that the video game rating 
system work effectively to provide accurate, objective information 
to parents.  Ultimately, I believe it is up to the gaming industry 
to cultivate a more responsible culture in fulfilling their 
obligations not only to the rating board, but to the public in 
general.  
Thank you, Mr. Chairman, again for holding this important hearing.  
MR. STEARNS.  I thank the gentlelady.  
Mr. Terry.  
MR. TERRY.  Thank you, Mr. Chairman, for holding this important 
hearing.  As the father of three young boys, 11, 8, and 6 who are 
avid gamers, I am very concerned about the content included in the 
games that they and other young kids play.  
My wife and I really try to be vigilant.  The first thing that we 
pay attention to is the rating on the cover.  What we have found 
out is that even within the ratings, there seems to be a wide 
disparity, particularly in the "T" or teens ware, especially with 
something like a car race game.  For example, we have kind of 
given carte blanche even with the "T" rating to buy racing games. 
And then we found out with one of the racing games that they 
actually get--or the purpose is to run from the cops, and you score 
how many points by the damage that you cause during the police 
chase, including hitting pedestrians, which I thought was pretty 
graphic.  
So we rely on these ratings.  And I just want to get a feel for how 
tight these ratings should be in order to properly educate or 
provide the basis for whether or not a game is bought to parents. 
I am concerned that the merchandisers are selling "M"-rated video 
games to children, which an FTC recent survey recently documented. 
 In my opinion, some of these games, the "M"-rated games, have 
pretty graphic violence of which, because the child is gaming, 
they are part of it.  And I think that may actually be more 
dangerous to the child than watching a violent Hollywood movie on 
TV or at the movie theater.  And then, of course, it scares the 
heck out of parents to hear about some of these Easter eggs or 
hidden scenes with graphic sex that wouldn't even be part of the 
rating.  And it is disturbing to me as a Member of Congress that 
the FTC, although requested by Congress, has not yet acted upon 
the most insidious of that example.  
Now, I look forward to hearing from the witnesses today and an 
exchange of ideas of how to further protect children and empower 
the parents in a gaming society.  I yield back. 
MR. STEARNS.  The gentlelady from Tennessee Mrs. Blackburn.  
MRS. BLACKBURN.  Thank you, Mr. Chairman.  I do want to thank the 
Chairmen of our subcommittee and also of our committee for holding 
the hearings on this issue.  And to our witnesses, we appreciate 
you, and we appreciate your time for being with us today.  
I know that there is going to be a great deal of focus on the 
violence depicted in the video games and on the ESRB rating 
structure; however, I want to be certain that we also discuss the 
depiction of sexually explicit content in video games.  Sadly, we 
know that this is a growing problem and one, I know, that is a 
cause of concern for many parents across the country and certainly 
for parents in my district.  
During hearings that we have held in other subcommittees, we 
discussed the alarming increase in the number of teenagers who are 
being exploited by sexual predators through the Internet.  We have 
got a whole generation facing a threat parents have never had to 
deal with before, and a generation of kids being desensitized to 
aberrant sexual behavior.  I think we would be remiss not to begin 
discussing how video game content is contributing to this problem.  
What I am reading and hearing from parents is that almost all 
"Adult-Only" video games have sexually explicit content.  But it 
also has been brought to my attention that some video games rated 
"Mature" may also contain this sort of content.  I would like the 
ESRB to confirm to this committee that no video games rated 
"Mature" contained sexual content.  And in this, I am referring to 
indirect reference--not to indirect reference, but to suggestive 
sexual scenes and acts.  
I know the industry has opposed age verification for violence in 
video games, claiming that such requirements are subject to overly 
vague standards, but I would like to hear the industry's position on 
requiring age verification only for video games that may have 
sexually explicit content.  
One other aspect I would like the industry to comment on is the 
abundance of freeware on the Internet, and whether ESRB rates this 
software.  
And a final comment.  I want to hear from the rating agency on 
whether they consider religious overtones a factor in their ratings. 
 I bring this up because of the recent MPAA rating of PG on a film 
solely because of a religious aspect, and putting this issue on par 
with violence, nudity, and foul language.  
Mr. Chairman, I again thank you for holding the hearing, and I yield 
the balance of my time. 
MR. STEARNS.  Mr. Murphy.  
MR. MURPHY.  Thank you, Mr. Chairman.  I speak today not only as a 
member of this committee, a Member of Congress, but also as a 
psychologist who has practiced in this field for many years working 
with children.  I wish I could submit this as part of the record, but 
it is my only copy left, the book I wrote on The Angry Child.  But in 
that I have worked extensively with children with a propensity 
towards violent and aggressive behavior.  
Researchers consistently told me as a psychologist that children who 
witness real-life violence even passively experience two and a half 
times greater risk for psychological and behavior problems.  Children 
who then are involved in an interactive way with video games have an 
increased tendency to act aggressively, with a decreased tendency to 
use calmer and more thoughtful approaches.  When they witness acts 
of violence, this leads kids to believe violence is more prevalent 
and acceptable than it is, and the viewer response becomes dulled, 
which therefore requires increased violence to perk up the sales of 
items.  From TV and games, we, in summary, have increased aggressive 
behavior, increased levels of arousal, and increased 
aggression-related thoughts and feelings.  
Now, the thing about video games that I find particularly interesting 
is anywhere you look in the industry or the literature of 
psychological and educational science, we have your highly 
interactive and realistic games.  The games reward violent behavior 
and children involved in repetitive behaviors.  Now, learning theory 
has told us that activity and rewards and repetition is how you get 
children to learn.  It is amazing to me as I see studies that are 
quoted by the gaming industry ignore that.  
I think what we need to start off with here is understanding that 
clearly what children are exposed to affects their behavior.  If 
that was not the case, then television and video games and even 
parenting itself and school would have no impact.  The fact is it 
does.  And so the issues here are not, it seems to me, the impact 
of games or the ratings, but perhaps the ease of purchase and the 
ease by which children can break through any sort of system that is 
set up there, whether the ratings are themselves--and sometimes we 
have heard in previous testimony they are false--or whether it is 
parents not watching over them.  
Now, I am not one to mandate a nanny state, where the Federal 
government or State governments say some things can be made and 
some things cannot out there.  What I do think is important is that 
we have to understand this:  No government has done a good job at 
mandating common sense and litigating compassion or legislating 
intelligence.  What we have to make sure is that parents themselves 
are the main factors with that.  
I always hope that hearings like this somehow help to increase 
people's awareness, but in having worked with literally thousands 
of children with pretty serious problems, unfortunately, that is 
not the case.  And so my hope is in this hearing today one of the 
things we hear from the people from the gaming industry of what 
role they wish to play aggressively with the billions of money 
that they make on these items to help educate parents and children 
to understand there is a relationship, and they need to be 
responsible about that.  
I yield back.  
MR. STEARNS.  Thank you. 
Mr. Pitts.  
MR. PITTS.  Thank you, Mr. Chairman, for scheduling this important 
hearing.  And thank you to the witnesses for sharing your expertise 
with us today.  Anyone who has young children or young grandchildren 
has seen how influential video images can be on young, impressionable 
minds.  They are very influenced as young children, and they learn a 
lot from video images.  And I think you should be commended, the 
industry, for what you are trying to do in setting up a system of 
self-regulation ratings.  
And parents who monitor what their kids are exposed to clearly have 
tools to regulate what comes in their home, but that leaves a lot of 
kids unprotected.  A sizeable percentage of kids live in homes where 
parents don't monitor what they are playing.  I think it is safe to 
say that, by and large, these are kids who are already disadvantaged 
and at risk, and I would be interested in what the industry is doing 
to protect these children. 
I am also interested in the effect video games have on kids' 
behaviors.  I think it is safe to say that a wealthy kid from the 
suburbs can play Grand Theft Auto or similar games without turning 
to a life of crime, but a poor kid who lives in a neighborhood where 
people really do steal cars or deal drugs or shoot cops might not be 
so fortunate.  And I should add that this isn't a hypothetical 
question.  Grand Theft Auto is one of the best-selling video games 
in America.  There is almost certainly a child somewhere in America 
who is going to be hurt by this game.  Maybe his dad is in jail, or 
his big brother is already down on the corner dealing drugs.  Maybe 
he has just fallen in with the wrong crowd.  But this game could be 
all it takes to nudge him on to the wrong side of the fence.  
And although I am a defender of the first amendment, don't you think 
that the industry has a moral responsibility to think about at-risk 
kids and impressionable minds before producing some of the stuff 
that we are going to witness today?  
So I hope you will address some of these questions in the hearing 
today.  And I thank you again, Mr. Chairman, for scheduling it.  
MR. STEARNS.  I thank the gentleman. 
The gentleman from New York, Mr. Towns.  
MR. TOWNS.  No opening prepared statement, Mr. Chairman.  I would 
like to place it in record.  
MR. STEARNS.  By unanimous consent, so ordered.  
[The prepared statement of the Hon. Edolphus Towns follows:] 

PREPARED STATEMENT OF THE HON. EDOLPHUS TOWNS, A REPRESENTATIVE IN 
CONGRESS FROM THE STATE OF NEW YORK 

Thank you, Mr. Chairman for holding this timely hearing. 
	Today we will hear a great deal about what is wrong with the 
video game industry.  We will see violent images and hear about how 
video games are corrupting children and giving them bad ideas.  
Essentially, we will be hearing a lot about the content that is seen 
in about 15 percent of video games 
	In contrast, I would like to stress the benefits and 
qualities that are found within the games that make up the other 
85 percent.  Further, I would like to commend the industry for 
addressing the public's complaints about content and doing its best 
to alleviate our concerns.  Additionally, I look forward to hearing 
from the FTC and await Ms. Parnes' explanation of its study. 
	With all of the distractions and negativity our young people 
face on TV, the internet, and in movies,  I am thankful that there are 
a large number of positive and educational video games available to 
capture their attention.  From "Battlefield 1942" and its stunning 
World War II scenes and maps,  to the wide variety of simulation 
games that enable a player to plan the layout of his or her own 
house or of an entire city,  games provide our children with 
amazing opportunities to learn about life, solve problems, and 
make tough decisions.  I personally enjoy selecting Tiger's clubs 
while playing the U.S. Open in Tiger Woods PGA Tour 2006.  (Sadly, 
it's the closest I'll ever come to the real experience!). 
	The availability of adult video games to minors is certainly 
a concern, and I hope to hear some new ideas from our witnesses.  I 
was pleased to read the FTC's findings on improvements made by 
retailers in this regard, and am confident that the ESRB will 
continue its oversight.  I lookk forward to our witnesses. 
	Thank you, Mr. Chairman.  I yield back. 
I'm again pleased to see the video game industry represented here 
today, as it continues to provide consumers with innovative 
technology and products.  That said, I'd like to stress that the 
protections in the DMCA have helped companies bring their products 
and intellectual property to market, and we should do our best to 
preserve their stream of commerce.  America's content companies 
continue to entertain and amaze all of us, and the movie industry at 
large has aggressively and innovatively embraced the digital 
marketplace.  Movie and television studios are not "holding back" 
their content, as some would have you believe, but rather are 
exercising due diligence and caution in not licensing a business 
model that exacerbates piracy. 
In an age when consumers want new products and recent movies in 
their hands as quickly as possible, we must be extremely careful 
when reviewing the protections and guidelines that govern the 
distribution of content.  I feel that the entertainment industry 
has made great strides, and I cite Mr. Feehery's ("FEARIE") 
testimony in that regard.  He lists a number of recent digital 
content deals cut by motion picture companies to distribute their 
works online,  on IPTV services,  for the i-Pod,  on peer-to-peer 
services,  and through innovative uses of the air waves.   These 
efforts, I believe, are steps in the right direction.  I was 
intrigued by Mr. Denney's testimony, in which he cites century-old 
examples of one or another content industry opposing various new 
technologies.  However, it appears to me that a look at more recent 
history shows the movie industry has embraced and driven the 
adoption of the DVD player and other consumer electronic devices. 
 Therefore, I look forward to Mr. Denney's comments here today and 
hearing his rationale. 
Finally, I would like to quickly mention that the video industry is 
not alone in fighting piracy and in need of protection.  We must be 
just as diligent in coming to the aid of those who operate in the 
audio realm, as our music artists are also under siege from rampant 
piracy and improper file sharing.  I look forward to the second 
session of this two-part hearing, when we will concentrate on audio 
protections in greater detail. 
Thank you, Mr. Chairman.   I yield back the balance of my time. 

MR. STEARNS.  Mr. Radanovich.  
MR. RADANOVICH.  Thank you, Mr. Chairman.  I appreciate the fact 
that you are holding this hearing.  
I, too, am a father of an 8-year-old, and he loves playing video 
games.  He plays anything from sports to action figures and 
adventures.  He is in the "E" for "Everybody" category.  He is not 
getting out of that until he is 30 years old, by the way, because we 
are going to make sure of that.  
His parents, my wife and I, are constantly faced with the challenge 
of determining what is appropriate for our son to be exposed to.  We 
face the same pressures that all the other parents face, with an 
impressionable child who sees the latest exciting advertisement for 
the newest game or game system, and he wants to have it.  
These are the difficulties we face, and one of the things that 
parents rely on critically is the way the games are rated.  That is 
why I am deeply concerned with the developments last year with the 
Grand Theft Auto game.  The game was given a "Mature" rating, but 
was later discovered to contain hidden content of which the ratings 
board was unaware.  I understand that this situation was addressed, 
and the rating was up to adults only, but it illustrates the 
possibility of ratings being inaccurate.  These are ratings that 
parents rely on, and it is our responsibility to make sure that they 
are reliable and dependable.  
I am also concerned with the marketing of games with "Mature" 
content.  These can be presented in a way that is very appealing to 
young children.  And I look forward to hearing about what the FTC is 
doing to address deceptive marketing within the industry.  
This hearing provides us with an excellent opportunity to learn more 
about the video game industry and its rating system.  I am 
interested in how that process works, how the ratings are enforced 
at the retail level, and how effective the ratings are in informing 
parents about the games children are playing.  
I understand the ratings board, the industry, and retailers have all 
made efforts to increase accountability for games content.  This is 
seen through increasing difficulty for minors to purchase games and 
a new technology that prevents games of a certain rating from being 
played.  The ESA in particular should be commended for its efforts 
with the ratings board; however, we need to look and see how 
effective this system is in practice and determine what is the best 
way to ensure that our children are protected.  
We have come a long way from playing Pong on the old Atari, and 
right now my wife and I still have a high level of control over what 
my 8-year-old can play, but he is young, and as children get older, 
that level of hands-on control can change.  We need to ensure that 
the rating system is accurate and that it is enforced so that parents 
can rely on it to keep games from ending up in the hands of those not 
old enough or mature enough to play them.  
I want to thank the witnesses for being here today, and I look 
forward to your testimony and a productive hearing.  
Thank you, Mr. Chairman.  
MR. STEARNS.  I thank the Chairman.  
Mr. Upton.  
MR. UPTON.  Thank you, Mr. Chairman.  I have a prepared statement 
for the record that I want to put in, but I want to say a couple 
things.  First of all, I appreciate having the hearing today and 
seeing my old friend and neighbor Warren Buckleitner here today as 
well.  
I would like to think that I have been an outspoken watchdog on this 
industry.  I have got two kids, I am a gamer myself.  I was an expert 
in Pong.  That was a good game.  But I have got to tell you, as a dad 
with two teenagers, I understand the rights of the first amendment 
and folks that can handle some of these games, and obviously some 
that cannot.  
And we in this committee took action on the House floor last year on 
Grand Theft Auto with the rating that they had, and I have got to 
tell you, if I had had that game in my house, I would have been 
outraged.  Maybe I would have hired a lawyer to go after some of 
these people for some of the garbage that they put out, but we 
didn't.  We passed a law instead, passed a resolution asking the 
FTC to go after them.  
And I guess I thought that the FTC had a few more teeth than they 
apparently have.  I have not read the consent agreement that just 
showed up in my office just this week almost a year after we in the 
House passed a very strong bipartisan resolution led by 
Mr. Dingell, Mr. Barton, Mr. Markey, and myself, and Mr. Stearns.  
And I am not at all happy with the consent agreement.  In essence, 
as I understand it, there are no consequences, none, for the rating 
that they had before, and merely an acknowledgement that if they 
mislabel or deceive folks in the future, that there will be a 
potential fine of up to $11,000 a day.  I would have liked to have 
thought that they would have been able to be fined for millions of 
dollars for the trash that they put out across this country with 
the label that they got.  
As a responsible parent, we have the duty to look after our kids, 
and when they go into a Best Buy or a Target or a Wal-Mart, parents 
often look at what that rating is.  And as Chairman of the 
Telecommunications Subcommittee, we have had hearings on those 
ratings with the video industry and with the music industry, and 
if those labels aren't accurate, parents can't make a decision as 
to whether their kids ought to participate in those games or listen 
to that type of music.  And to find at least on the surface of what 
we saw with the Grand Theft Auto, I just can't tell you how 
disappointed and angry I am that their actions in essence aren't 
even a slap on the wrist, nothing, for the most popular video game 
that was sold in America.  
So I look forward to this hearing.  I look forward to looking at 
legislation--if the FTC doesn't have the ability to go after them 
when they deliberately deceive them, I look forward to seeing what 
we could do to change that.  And I obviously am out of time, and 
I look forward to participating.  
And I thank you, Mr. Stearns.  
[The prepared statement of the Hon. Fred Upton follows:] 

PREPARED STATEMENT OF THE HON. FRED UPTON, A REPRESENTATIVE IN 
CONGRESS FROM THE STATE OF MICHIGAN 

Thank you Mr. Chairman, as you know, I have been an outspoken 
watchdog against explicit video games.  I introduced H Res 376, 
which passed the House overwhelmingly last July,  to require the 
FTC to look into this situation with the game Grand Theft Auto: 
San Andreas because I was appalled to hear about the game having a 
back door to porn embedded in its files. 
As a parent of two teenagers, I know firsthand that parental 
involvement is the most important line of defense in determining the 
type of content suitable for children, and the ratings system 
empowers parents to do just that.  Unfortunately, the incident 
involving Rockstar Games has severely degraded the integrity of the 
ratings system.  How can parents trust a system in which game makers 
do an end-run around the process to deliver pornographic material to 
our kids? 
I appreciated the ESRB's swift action in investigating the matter and 
revoking the M rating and ensuring that any further sales of "Grand 
Theft Auto: San Andreas" were under an AO rating.  But this action 
should have never been necessary had Rockstar Games complied with 
industry standards from the outset. 
This kind of material would have certainly earned it an "Adults Only" 
Rating rather than the "Mature" rating that it has been marketing.  
I cannot imagine how a good player in the video game industry could 
make an honest mistake of something like that, so you have to wonder 
just what they are trying to do.  I look forward to hearing from the 
industry about their commitment to rating games accurately and 
retailers about their initiatives to make sure that Adult Only games 
don't get into the wrong hands. 
I am especially interested in hearing what Warren Buckleitner has to 
say about this because he and I grew up together in St. Joseph, 
Michigan.  I can only assume that his Midwestern common sense and 
good judgment will help clarify what is really going on in the video 
industry and what may or may not be needed to combat bad video games 
and bad purchase choices. 
	I hope the FTC plans to walk through the outcome of the case 
that they opened against Take Two and Rock Star Games, the makers of 
Grand Theft Auto and the outcome of this case.  I have to be honest, 
I was hoping for something a little harsher especially after waiting 
so many months to see the result of this investigation, although I am 
not sure that the FTC really has the power to punish a bad player to 
the degree that I would like. 
		The video game industry has gone into great detail 
in defining their ratings, (I have them right here)  but I want 
parents to feel confident that the labeling of the video games they 
allow their kids to play is reliable and that a bad actors do not 
get away with deceptions like this. 

MR. STEARNS.  I thank the gentleman. 
It is my pleasure to welcome a Member who is not a member of this 
subcommittee, Mr. Matheson, who has a bill, I think it is H.R. 5345, 
and I welcome him for a short opening prepared statement, and 
welcome. 
MR. MATHESON.  Thank you, Mr. Chairman.  I have a written prepared 
statement I will submit for the record.  But I just want to thank 
you, Chairman Stearns, and Ranking Member Schakowsky for giving me 
a chance to sit in on your hearing.  I am so pleased you are holding 
this hearing. 
There are a number of bills that have been introduced by different 
Members.  You have the capability to assess all those different 
bills and try to work through the good ideas from all of them.  I 
think I have one point of view that might be helpful, and I just 
look forward to participating in the hearing, and thank you for 
the opportunity to be here.  
 [Additional statements submitted for the record follows:] 

PREPARED STATEMENT OF THE HON. MIKE ROSS, A REPRESENTATIVE IN 
CONGRESS FROM THE STATE OF ARKANSAS 

Good afternoon and welcome.  I would like to start off by thanking 
Chairman Stearns and Ranking Member Schakowsky for holding today's 
hearing regarding "Violent and Explicit Video Games: Informing 
Parents and Protecting Children".  
As the father of two teenagers, a seventeen year old and a fourteen 
year old, I know first hand the thoughts and worries that many 
parents of teenagers in this day and age are facing.  
Just like any parent, I want the best opportunities and experiences 
for my children.  And just like any parent, I want to be able to 
keep up with all aspects of my children's lives, including the 
situations and content they are exposed to.  
With that said I, along with many other parents, strive to do the 
best we can but know that there are areas where all parents can 
continue to learn more so as to best help their children be exposed 
to constructive experiences.  
In this day and age, technology moves at an extreme pace, which can 
yield both the positive and the negative.  Advanced technology 
allows greater opportunities and access to information, education, 
and entertainment.  
Yet, the ever changing world of technology sometimes can get ahead 
of a parent's ability to adequately track and comprehend each new 
option that is presented to our children. 
I am aware of the existing ratings board in place that continues to 
monitor and rate video games that are sold in the market to persons 
of all ages.  I am pleased that such a ratings system exists and 
look forward to learning more about the specifics of this system. 
I also look forward to further discussion on ways that we may be 
able to better utilize this system, as well as ways we can better 
educate parents on the content of the games that they purchase or 
allow their children to play. 
I believe that all members in the room and witnesses present today 
are here to see the same guiding principle accomplished, and that 
is finding ways that we can best protect our children and help them 
experience and learn from positive components of our ever changing 
world of technology and entertainment. 
Once again, I thank today's subcommittee for holding this hearing 
and thank all the witnesses who have taken time to come here today 
to help elaborate on this important issue.  I look forward to the 
upcoming discussions. 

MR. STEARNS.  Thank you. 
With that, I don't think we have any more opening statements, and so 
we will move to our panel.  Before we do, we have an edited video 
that we intend to show.  I caution, it is Grand Theft Auto and other 
videos.  It does have some explicit material.  We have put this on 
the front of this edited version, but we would like to show that to 
you.  And I understand some of you on the panel have videos of your 
own that you want to show, so we will obviously allow you to do 
that, but I thought we would give before your opening statements 
start sort of an overview of what we are talking about.  And so with 
that we will show the video.  
[Whereupon a videotape was played.]  
MR. STEARNS.  I think that concludes the video clips of that.  We 
will start on our panel.  
Lydia Parnes is Director of Bureau of Consumer Protection at the 
Federal Trade Commission; Mr. Gary Severson, Senior Vice President 
of merchandising, Wal-Mart Stores; Mr. Douglas Lowenstein is 
President of the Entertainment Software Association; 
Ms. Patricia E. Vance, President, Entertainment Software Rating 
Board; Dr. Kimberly Thompson, Director, Kids Risk Project, Associate 
Professor of Risk and Analysis and Decision Science at Harvard; 
Dr. Warren Buckleitner, Editor, Children's Technology Review; and, 
lastly, Dr. David Walsh, President, National Institute on Media and 
the Family.  
With that, I welcome all of you.  And we will start with my left.  
Ms. Parnes, welcome, for your opening prepared statement. 

STATEMENTS OF LYDIA PARNES, DIRECTOR, BUREAU OF CONSUMER PROTECTION, 
FEDERAL TRADE COMMISSION; GARY SEVERSON, SENIOR VICE PRESIDENT, 
MERCHANDISING, WAL-MART STORES, INC.; DOUGLAS LOWENSTEIN, PRESIDENT, 
ENTERTAINMENT SOFTWARE ASSOCIATION; PATRICIA E. VANCE, PRESIDENT, 
ENTERTAINMENT SOFTWARE RATING BOARD; KIMBERLY M. THOMPSON, DIRECTOR, 
KIDS RISK PROJECT, ASSOCIATE PROFESSOR OF RISK ANALYSIS AND DECISION 
SCIENCE, DEPARTMENT OF HEALTH POLICY AND MANAGEMENT, 
HARVARD UNIVERSITY; WARREN BUCKLEITNER, PH.D., EDITOR, CHILDREN'S 
TECHNOLOGY REVIEW; AND DAVID WALSH, PH.D., PRESIDENT, NATIONAL 
INSTITUTE ON MEDIA AND THE FAMILY 

MS. PARNES.  Thank you, Mr. Chairman, Ranking Member Schakowsky.  
I am Lydia Parnes, Director of the Bureau of Consumer Protection at 
the Federal Trade Commission, and I appreciate the opportunity to 
appear before you today to discuss the Commission's role in 
monitoring the marketing of violent video games to children 
under 17.  
As the committee is aware, in response to concerns from Congress 
and the public, the Commission has maintained an active program of 
reviewing and reporting on the advertising and marketing of violent 
entertainment products including movies, video games, and music.  
The courts have found that the expressive content in these products 
is protected speech under the First Amendment, leaving a very narrow 
range of permissible government involvement with their advertising 
and marketing.  We believe, however, that we can play an important 
role in encouraging industry to maintain active self-regulatory 
programs and in holding the entertainment industry to its 
commitments.  
The Commission's first report on the marketing of violent 
entertainment products was issued in September 2000.  Since then, 
the Commission has issued four follow-up reports.  
We currently have several ongoing efforts directed to marketing of 
violent entertainment products.  We are developing a survey to 
determine whether parents are familiar with and use the ESRB's video 
game rating system.  We are currently conducting a new undercover 
test shopping program to determine whether retailers abide by age 
restrictions on the marketing of video games and other products.  
For video games, past results show that retailers are headed in the 
right direction, but there is still substantial room for 
improvement.  And, as was noted in our most recent shop, 42 percent 
of teens were still able to buy "M"-rated games.  
We are actively monitoring advertising practices to determine 
compliance with industry standards for the disclosure of rating 
information, and we are collecting from the industry itself the 
information necessary to issue a new report on the state of 
self-regulation.  We hope to release this report by the end of the 
year.  
In addition, as the committee is aware, in response to a 
congressional resolution, the Commission recently completed an 
investigation into the undisclosed explicit content in the video 
game Grand Theft Auto San Andreas.  This is obviously a matter of 
serious concern to us, the public, and the Congress.  Parents must 
be able to rely on the accuracy of the industry rating system.  
The staff at the FTC conducted a detailed inquiry, reviewing 
thousands of internal documents, deposing company officials, 
interviewing other potential witnesses, and consulting with outside 
experts.  At the conclusion of the investigation, staff believed 
that the game's developers bore responsibility for what occurred, 
having created the content that was ultimately made playable by the 
mod program known as Hot Coffee.  Accordingly, last week the 
Commission accepted for public comment a settlement with the game's 
developers that seeks to ensure that such events not happen again.  
Several members this afternoon have expressed concern that the FTC 
has failed to report back to Congress on the results of our 
investigation.  The congressional resolution directed the FTC to 
conduct this investigation and take action, which we did, but of 
course we would be happy to submit written material to the committee 
to follow up on this.  
Mr. Upton, you also expressed concern about the adequacy of our 
order to address this conduct.  First, I want to assure you that I 
understand these concerns, and I share them, and I thank you for 
your longstanding support of the Commission, and especially for our 
work in this area.  But the fact is simply the Commission does not 
have the statutory authority to impose civil penalties for Rockstar's 
conduct.  Despite that, we have obtained a strong order in this case. 
It prohibits any future misrepresentations of video game ratings, 
requires the filing of compliance reports, and subjects the company 
to the risk of very substantial civil penalties if they violate this 
order.  Finally, Rockstar's misconduct did have significant financial 
repercussions for the company.  Rockstar has publicly reported to 
its investors that it spent $25 million recalling and relabeling 
games as a result of the ESRB's revocation of Grand Theft Auto's 
rating after disclosure of the hidden content.  
Finally, the Commission remains active in consumer education.  Most 
recently, we updated our consumer education material and Web site to 
make sure that parents understand that game content, especially in 
PC games, can be modified or changed through mods that are widely 
available on the Internet.  
In conclusion, as the industry continues to produce games with 
increasingly explicit content, industry self-regulatory efforts 
become even more important.  The Commission will continue to monitor 
closely industry developments and will initiate law enforcement 
actions, like our case challenging the marketing of San Andreas, 
whenever appropriate.  
Thank you.  And I look forward to responding to your questions.  
[The prepared statement of Lydia Parnes follows:] 

PREPARED STATEMENT OF LYDIA PARNES, DIRECTOR, BUREAU OF CONSUMER 
PROTECTION, FEDERAL TRADE COMMISSION 

I. 	Introduction
Mr. Chairman, Ranking Member Ms. Schakowsky, I am Lydia Parnes, 
Director of the Bureau of Consumer Protection at the Federal Trade 
Commission.  I appreciate the opportunity to appear before you today 
to discuss the Commission's monitoring of the marketing of electronic 
games (commonly known as video games) to children under 17 and the 
serious concerns that some parents have about the marketing of some 
of these games.1  Our monitoring plays an important role in 
encouraging industry to maintain active self-regulatory programs and 
in keeping the entertainment industry to its commitments. 
The Commission's involvement in this area dates back to 1999 with 
the revelation that the teen-aged shooters at Columbine High School 
had been infatuated with extremely violent movies, music, and video 
games.  This event led to Congressional and Presidential requests 
that the Commission investigate and report back on the practices of 
the movie, video game, and music recording industries with respect 
to the marketing of violent entertainment to children under 17.  
Since then, the Commission has issued five reports on the marketing 
of violent entertainment products.  These reports have examined 
voluntary guidelines and industry codes that govern the placement 
of advertising for violent Restricted (R)-rated movies, Mature 
(M)-rated games, and Explicit-Content Labeled recordings in media 
popular with teens, and require the disclosure of rating and labeling 
information in advertising and on product packaging.  Given that the 
focus of today's hearing is video games, I will limit most of my 
remarks to that industry, except to point out relevant comparisons.2 
 Over the years, the FTC reports have documented progress by the 
video game industry in limiting advertisements for M-rated games in 
popular teen media.  The FTC also has found that the video game 
industry nearly always provides rating information in advertising. 
Despite this progress, there remain a number of concerns relating 
to video games and how they are marketed.  First and foremost, there 
is the question of the usefulness of the rating system widely used 
by the industry.   It is critically important that parents know 
about and use the Entertainment Software Rating Board ("ESRB")3 
ratings and content descriptors4 when choosing games for their 
children.  Content descriptors - such as Blood & Gore, Strong 
Language, Strong Sexual Content, and Violence  - which can be found 
on the back of the game box, help inform parents about the game's 
content. 
In addition, it is important that parents understand that game 
content, especially on PC games, can be modified or changed through 
modifications or "mods" that are widely available on the Internet.  
Often these modifications are developed by third-party game 
enthusiasts with no connection to the video game companies.  If 
downloaded and made part of a game, they can add additional content, 
ranging from simple additions like a different color car used in a 
street scene, to superimposing new textures or skins on a figure in 
a game.  Many of the mods would likely be of little concern to 
parents, but others add nudity or enhance the violence or depictions 
of blood in a game.  In light of the easy availability of these 
"mods," the Commission, in July 2005, issued a Consumer Alert on 
the video game rating system that highlights for parents the fact 
that content can be downloaded from the Internet that has not been 
evaluated by the ESRB and may make a game's content more explicit 
than the rating indicates.5 
Similarly, parents need to be concerned about game developers leaving 
otherwise unplayable content on a game disc that is later made 
playable by patches or programs developed by third-party modders.  
The Commission recently investigated this very issue, culminating 
last week in an announcement that the Commission had accepted for 
public comment a consent agreement relating to alleged deception in 
the marketing of Grand Theft Auto: San Andreas and the release on 
the Internet of the so-called "Hot-Coffee" program that, if 
downloaded and installed, made playable a sex mini-game.6 
The Commission also has expressed concerns regarding how readily 
children can buy M-rated video games in stores.  Although retailers 
selling video games have steadily improved their record of denying 
under-age children access to M-rated games, a significant percentage 
of children sent in as undercover shoppers are still able to buy 
these games.  Moreover, children are often exposed to advertising 
for these products.  As is the case with the movie and music 
industries, existing voluntary guidelines for the video game 
industry still would permit M-rated ad placements in media that are 
very popular with large numbers of teens.  In the past, all three 
industries have placed ads for M-rated, R-rated, or labeled products 
on television programs that are, according to Nielsen rankings, 
among the most popular shows watched by teens, yet still fall within 
industry placement guidelines. 
Because the expressive content in video games has been considered 
protected speech under the First Amendment,7 there is a very narrow 
range of permissible government involvement with their advertising 
and marketing.  As the industry continues to produce games with 
increasingly explicit content, it becomes even more incumbent upon 
industry to enforce and enhance its self-regulatory guidelines 
governing marketing, and upon retailers to implement and enforce 
policies restricting children's access to Mature-rated games. 

II.	The Commission's Studies 
A. 	Scope of the Studies 
As stated earlier, the Commission has issued five reports on the 
self-regulatory and marketing practices concerning violent 
entertainment by the movie, music, and video game industries.8   
In the course of preparing these reports, the Commission staff 
requested information from the principal industry trade 
associations, as well as from major motion picture studios, music 
recording companies, and video game companies.9  In addition, the 
Commission staff contacted interested government agencies, medical 
associations, academics, and parent and consumer advocacy groups.10 
The Commission collected information from consumers through publicly 
available surveys and polls and also designed and conducted its own 
research.  In addition, the Commission has conducted four "mystery" 
shopper surveys of retail stores and movie theaters in an attempt 
to see if unaccompanied children could purchase or gain access to 
products labeled as inappropriate or warranting parental guidance. 
 Finally, the Commission staff reviewed Internet sites to study how 
they are used to market and provide direct access to rated or 
labeled products. 

B.	Findings of the Commission's First Report 
 In September 2000, the Federal Trade Commission issued its first 
report entitled, Marketing Violent Entertainment to Children: A Review 
of Self-Regulation and Industry Practices in the Motion Picture, Music 
Recording & Electronic Game Industries ("September 2000 Report").11  
That report found that the three entertainment industries had engaged 
in widespread marketing of violent movies, music, and video games to 
children that was inconsistent with the cautionary messages of their 
own parental advisories and that undermined parents' attempts to make 
informed decisions about their children's exposure to violent 
content.  In addition, the Commission found that advertisements for 
such products frequently failed to contain rating information. 
The Commission also conducted national telephone surveys of parents 
and children on their familiarity and use of the ratings and 
parental advisories.  With respect to video games, our survey in 
2000 found that only 61% of parents were aware of the ESRB system, 
and that 45% of those parents reported that they rarely or never used 
the ESRB system.12  
Finally, the Commission reported on the results of an undercover 
mystery shop by unaccompanied teens, aged between 13 and 16, of 
retailers and movie theaters.  In our 2000 survey, 85% of the 
unaccompanied young teens bought M-rated video games and parental 
advisory-labeled music recordings and 46% purchased tickets for an 
R-rated movie.13 
The September 2000 Report recommended that all three 
industries - with respect to products that they themselves rate or 
label with age restrictions or parental advisories due to their 
violent content -  enhance their self-regulatory efforts by:  
1) establishing or expanding codes that prohibit target marketing 
these products to children and imposing sanctions for violations; 
2) increasing compliance at the retail level; and 3) increasing 
parental understanding of the ratings and labels. 

C.	Findings of the Commission's Follow-Up Reports in 2001 
In response to Congressional requests, the FTC released follow-up 
reports in April and December 2001.14  Both reports examined the 
entertainment industry's practices with regard to marketing violent 
 entertainment products to children.  These reports noted progress 
by the video game industry, as well as the movie industry, in 
providing clear and conspicuous disclosure of rating information in 
advertising, as well as new efforts by both industries to limit 
advertising for M-rated games and R-rated movies in popular teen 
media venues.  The reports also found that the music industry showed 
virtually no change in its placement of parental advisory-labeled 
music ads since the September 2000 Report.  
The results of the Commission's second undercover shopper survey 
were included in the  December 2001 Report.  The video game 
retailers showed modest improvement from the results in the 
Commission's undercover survey in 2000, with 78% of the 
unaccompanied young teens able to buy the product; the movie 
theaters showed no statistically significant change, with 48% able 
to buy a ticket to an R-rated movie as compared to 46% in 2000.  
The music industry had the worst results, with 90% of shoppers able 
to buy music recordings with an explicit-content label, not a 
statistically significant change from the 85% result obtained in 
the Commission's 2000 shop. 


D.	Findings of the Commission's June 2002 Report 
The Commission's next report, issued in June 2002,15 showed 
continued progress by the movie and video game industries and 
improvement by the music industry in including rating information 
in advertising that would help parents identify material that may 
be inappropriate for their children.  In the case of video games, 
the Commission found nearly universal compliance with ESRB standards 
limiting the advertising of M-rated games in media where children 
constitute a certain percentage of the audience (35% for television 
and 45% for print media).  Nonetheless, the Commission found that 
some industry members had placed advertisements for M-rated games 
on television shows popular with teens, and in youth-oriented 
game-enthusiast magazines.  As the Commission noted in its December 
2001 Report, the industry's anti-targeting standards 
diminished - but did not eliminate - advertisements during programs 
mainly popular with teens. 

E.	2003 Workshop on Industry Marketing Practices 
In October 2003, the Commission held a public workshop on industry 
marketing and retail sales practices.  At the workshop, 
representatives from consumer and parents' groups, as well as the 
motion picture, video game, and music recording industries' major 
trade and retailer associations discussed and debated the state of 
self-regulation in each of these industries.  A summary of the 
workshop appears in the Commission's July 2004 report.16  
Significantly, one positive outgrowth of that workshop was an 
announcement by the trade group representing video game retailers 
that they would step up their efforts to restrict sales of M-rated 
games to children, and by the end of 2004 would have in place an 
enhanced system to deter such sales.17   Based upon the results of 
the Commission's most recent mystery shop (see Section II. G., 
infra), it appears that game retailer members have adopted policies 
to restrict such sales but need to do more to ensure that such 
policies are being enforced. 

F.	Findings of the Commission's July 2004 Report 
The Commission's July 2004 Report found substantial, but not 
universal, compliance with ESRB standards governing ad placements 
and found that industry participants generally were prominently 
disclosing rating information in advertising and on product 
packaging.  The report further found that ads for M-rated games 
continued to appear in game enthusiast magazines popular with teens, 
 and that Teen (T)-rated games were advertised in media popular with 
pre-teens (children under 13).  The Commission recommended that the 
video game industry, as well as the movie and music industries, 
improve their efforts to avoid advertising restricted or labeled 
products in venues popular with under-17 audiences.  The report 
also noted that the game industry could improve its efforts to 
disclose rating information, by including content descriptors in 
TV ads and on the front of game packages. 
The report discussed the results of a mystery shopper survey of 
retailers conducted on the Commission's behalf in 2003.  This survey 
found that 69% of young teen shoppers (age 13-16) were able to buy 
Mature-rated games, reflecting some improvement from earlier 
undercover shopping surveys conducted in 2000 and 2001.  However, 
the survey also revealed that retailers still far too often were 
selling such games to children.  The report encouraged retailers 
to do a better job disclosing ratings and reasons for ratings in 
advertising, and to more widely implement and enforce sales 
policies restricting children's access to restricted or labeled 
entertainment media, and, in particular, R-rated DVDs and homes 
videos, music with a parental advisory, and M-rated games. 

G.	Latest Mystery Shop Results 
On March 30 of this year, the Commission released the results of its 
latest nationwide undercover shop of video game stores.18  The 
undercover shop saw a substantial decrease in the number of M-Rated 
video games sold to unaccompanied children, particularly by large 
retailers.  Forty-two percent of the secret shoppers - children 
between the ages of 13 and 16 - who attempted to buy an M-rated 
video game without a parent were able to purchase one, compared to 
69% of the shoppers in 2003.  Notably, large retailers performed 
better - 35% of the secret shoppers were able to buy the M-rated 
games.  While these results are headed in the right direction, there 
is still substantial room for improvement.  The Commission staff 
currently is conducting another undercover shop to test whether 
children under age 17 are able to buy tickets to R-rated films at 
movie theaters, R-rated movies on DVD, explicit-content labeled 
music recordings, and M-rated video games. 

III.	The Commission's Ongoing Activities 
A.	Survey Research and Ad Monitoring 
The Commission staff is currently conducting research for a new report 
on entertainment industry practices.  Among other things, the 
Commission staff will be surveying consumers on the video game 
rating system.  The surveys are a follow-up to the Commission's 
surveys in 2000 on consumers' familiarity with and use of the ESRB 
video game rating system.  Because parents' knowledge of and ability 
to use the rating system is a key factor, the Commission intends to 
survey both parents and children to find out, among other things, 
whether parental participation in the selection and purchase of 
video games has changed since the 2000 survey, whether parental 
knowledge and use of the ESRB system has changed, and what parents' 
level of agreement is with the ESRB ratings for games they have 
personally encountered through purchase or play with their children. 
 The Commission plans to survey 1,000 parents who have one or more 
children, aged eight to 16, who play video games or personal 
computer games.19  The FTC will also survey 500 children aged eight 
to 16 who play video or personal computer games. 
The Commission staff continues to monitor the industry's advertising 
practices for disclosure of rating information and for the placement 
of ads for M-rated games, R-rated movies, and music with a parental 
advisory in media popular with children.  As part of this monitoring, 
the FTC surfs web sites to study the disclosure of ratings 
information and methods used to preclude the sale of restricted or 
labeled products to children under 17. 
The Commission plans to release a report near the end of this year 
summarizing the results of these additional surveys and monitoring 
activities. 


B.	Collection of Media Violence Complaints 
On March 17, 2004, the Commission announced an expansion of its 
consumer complaint handling system to categorize and track complaints 
about media violence, including complaints about the advertising, 
marketing, and sale of violent movies, video games, and music.20  
To make it easier for consumers to file a complaint, the 
Commission's home page - www.FTC.gov - contains a link to the 
complaint form.  The expanded complaint system, implemented in 
response to Congressional directives, enables the Commission to 
track consumer complaints about media violence and identify issues 
of particular concern to consumers.  To date, the Commission has 
received over 1,200 complaints.21 

C.	Law Enforcement Activities
The Commission has completed its investigation into the marketing of 
the video game Grand Theft Auto: San Andreas, having reviewed tens 
of thousands of documents and the deposition testimony of numerous 
company officials.   As noted earlier, the Commission has accepted 
for public comment a consent agreement with the developers of San 
Andreas to address alleged deception in the marketing of that 
game.22 
The ESRB originally rated Grand Theft Auto:  San Andreas M 
(Mature 17+), indicating that the game has content that may be 
suitable for persons ages 17 and older.  As part of the rating, the 
ESRB had assigned the game the following content descriptors:  
Blood and Gore, Intense Violence, Strong Language, Strong Sexual 
Content, and Use of Drugs. 
In July 2005, after media reports of a widely available "mod," the 
ESRB found that the game discs for the originally released PC, 
PlayStation 2, and Xbox versions of San Andreas contained unused 
nude female textures ("skins") and a sexually explicit mini-game 
that had been edited out of game play but was embedded in wrapped 
form in the game's computer code23.  Users of the originally 
released PC version of the game could access this content by 
downloading and installing a third-party program called 
"Hot Coffee."  Later, PlayStation 2 and Xbox users were able to 
access the same content by taking certain affirmative steps, such 
as installing special software and/or hardware accessories on 
their game consoles. 
According to the ESRB, its initial rating of San Andreas was 
seriously undermined by the existence of the undisclosed and highly 
pertinent content on the final game discs, compounded by the broad 
distribution of the Hot Coffee program.24  The ESRB therefore 
re-rated the game as AO (Adults Only 18+), indicating that the game 
has content that should only be played by persons 18 and older.  The 
ESRB also assigned the game an additional content descriptor for 
nudity. 
Major retailers, most of whom have policies not to sell AO-rated 
games, promptly removed the original versions of San Andreas from 
their store shelves.  Take-Two Interactive, Inc., the game's 
publisher, agreed to offer retailers the option of either 
re-stickering existing inventory with an AO (Adults Only 18+) rating 
or exchanging all unsold inventory for new, M-rated versions of the 
game with the Hot Coffee content removed.25  Take-Two also agreed to 
make a downloadable patch available to all consumers who had 
previously purchased the PC version of the game, which would make 
the Hot Coffee program inoperable. 
The ESRB clarified its rules to clearly require all game companies 
to disclose any pertinent content that might impact the rating 
contained on the game discs sold to the public, even if that content 
is not intended to be accessed during game play.  The ESRB also has 
stated publicly that it intends to increase the fines available for 
companies who fail to disclose pertinent content during the rating 
process to as much as $1,000,000.26  
Undisclosed explicit content in video games is obviously a matter of 
serious concern.  Parents must be able to rely on the accuracy of 
the industry rating system.   Practices, whether by game 
manufacturers or a third party, that undermine the integrity of 
this system need to be addressed. 
In the instance of San Andreas, the Commission believes that its 
developers bear responsibility for what occurred, having created the 
content that was ultimately made playable by the "Hot Coffee" 
program.27  Accordingly, the Commission last week published a 
complaint and accepted for public comment a settlement with 
Take-Two Interactive and Rockstar Games that seeks to ensure that 
such events not happen again.  The agreement, if made final 
following a 30-day comment period, would require the companies to 
make disclosures in their advertising and marketing whenever they 
include content on a game, whether playable or not, that would 
likely affect the rating for the game, unless they have disclosed 
that content to the ESRB or other applicable rating authority.  
In addition, the agreement includes a requirement that the 
companies not misrepresent the rating or content descriptors for a 
game, and implement and maintain a system reasonably designed to 
ensure that all of the content of a game is considered when the 
companies prepare a submission for the ESRB or other rating 
\authority.28  	
The Commission believes that last weeks's action complements the 
steps the ESRB has already taken.  Importantly, it also makes clear 
that companies owe an obligation to the public independent of their 
obligations to the ESRB, not to misrepresent the content that might 
become accessible on a video game. 

IV.	Conclusion 
The Commission's follow-up reports have documented progress by the 
video game industry in complying with and improving its 
self-regulatory policies restricting ad placements and requiring 
rating information in advertising.  More remains to be done. 
Because of First Amendment and other issues, the Commission continues 
to support private sector initiatives by industry and individual 
companies to implement the suggestions mentioned above.  Nonetheless, 
the Commission will continue to monitor closely developments in the 
area and will initiate actions, such as the case challenging the 
marketing of San Andreas, when appropriate. 

MR. STEARNS.  Mr. Severson. 
MR. SEVERSON.  Chairman Stearns, Ranking Member Schakowsky, and 
distinguished members of the committee, Wal-Mart thanks you for 
holding this hearing today.  We support actions to prevent children 
from obtaining violent and explicit video games, and inform and 
educate parents regarding the same.  We are prepared to work with 
you on this issue.  
I am Gary Severson, Senior Vice President and General Merchandise 
Manager for Wal-Mart, and I oversee the purchases of toys, 
electronics, entertainment, computers, and photos for Wal-Mart U.S. 
stores.  
Wal-Mart is pleased to be a part of this process.  As a responsible 
retailer, we take voluntary steps and proactively work to prevent 
children from obtaining "Mature" and "Adult"-rated video games, and 
to inform parents about video game content before a purchase is 
made.  
All the video games we carry are rated by the Entertainment Software 
Ratings Board.  ESRB is responsible for rating the content of the 
games.  The rating system is designed to help customers choose the 
right games for their families.  Parents report that they find the 
rating system helpful and mostly credible.  
First, while Wal-Mart represents a good portion of the video game 
sales in the United States, we feel it important to point out that 
we choose not to sell any video game with an "Adult-Only" rating. 
Second, we have a process in place to help ensure that only 
customers who are 17 or older can purchase video games rated 
"Mature."  Wal-Mart associates are not permitted to sell "Mature" 
video games to any person under the age of 17 unless that person 
is accompanied by a parent or guardian.  All "Mature"-rated are 
prompted at the register to check the age of the customer.  The 
associate is then required to request that the customer provide a 
current valid form of identification.  If they cannot provide that 
form of identification, we must politely decline the sale.  All of 
our associates are taught and trained in the selling of "Mature" 
video games.  
All of our stores have the ESRB rating system posted in the 
electronics area next to the video game product.  We recently took 
steps to improve beyond what we had done in the appearance and 
visibility of those signs.  We also use our in-store television 
network to run public service announcements about the rating system, 
and we display the rating system when we advertise video games in 
newspaper circulars.  
Compliance with these guidelines is crucial in helping us to be one 
of the leaders among retailers in terms of compliance with the 
rating system.  Wal-Mart continually works to improve its 
performance regarding the sale of video games.  We focus on 
education and ratings enforcement, and are working on new ideas to 
educate parents about ratings.  
It is important to note that we believe self-regulation regarding 
compliance with the ESRB rating system in this sector works.  There 
has been dramatic improvement among retailers in restricting access 
to inappropriate content by minors.  Specific actions that led to 
this improvement include installation of digital prompting 
technology, clear signage at the retail sales floor describing the 
rating system, and the dissemination and utilization of documents 
outlining training for sales clerks.  
We have systems and procedures in place to timely deal with any 
issues that may arise in the sale of video games.  For example, the 
recent video game titled Oblivion was originally rated "Teen", but 
was changed to "Mature" when it was determined to contain mature 
content.  As soon as Wal-Mart was notified of the change, we 
immediately pulled the video games off the floor, moved them to the 
back room, waited for relabeling, changed our register prompts in 
our systems, and put the product back out on the floor when all 
systems were in place.  Further, within minutes of receiving notice 
from the ESRB regarding the hidden content in the much-discussed 
Grand Theft Auto today, Wal-Mart stopped all sales of the video 
game, pulled the video games from the retail sales floor, and 
returned them to the supplier.  
We also have activities and affiliations with other organizations 
that are making a difference.  We are a member of Healthy Media 
Healthy Children, which is an umbrella organization for Pause, 
Parent, Play, which is a campaign to empower parents to make 
decisions about what their kids watch, hear, and play from 
television and movies to video games and music.  Further, Wal-Mart 
is a member of the Entertainment Merchants Association, the EMA.  
It is committed to parental empowerment programs.  As a 
family-friendly, responsible retailer, we have been focused on 
being involved in ways to make sure children do not purchase 
inappropriately rated video games and in educating parents 
regarding video game content for almost 5 years.  We will always 
work on ways to improve the process.  
Thank you for your time and allowing me to speak on behalf of 
Wal-Mart regarding this important topic.  We look forward to 
working with you effectively and constructively to address this 
issue.  Thank you. 
[The prepared statement of Gary Severson follows:] 


PREPARED STATEMENT OF GARY SEVERSON, SENIOR VICE PRESIDENT, 
MERCHANDISING, WAL-MART STORES, INC. 

	Chairman Stearns, Ranking Member Schakowsky and distinguished 
Members of the Committee: Wal-Mart Stores, Inc. thanks the Committee 
for its work on this important issue and for holding this hearing 
today.  We support actions taken to prevent children from obtaining 
violent and explicit video games and to inform and educate parents 
regarding the same.  We are prepared to work with you to avoid the 
sale of this material to children and to make certain parents 
understand what they and their children are purchasing.    

Background
My name is Gary Severson.  I am the Senior Vice President and 
General Merchandise Manager for Wal-Mart Stores, Inc.  I oversee 
the purchase of toys, electronics, video games, computers, music 
and movies.  I joined Wal-Mart in 1994 as a Buyer.  In 1995, I was 
promoted to Merchandise Manager and was appointed to Vice President 
and Divisional Merchandise Manager in 1997.  In August of 2002, I 
was promoted to Senior Vice President and General Merchandise 
Manager.  Prior to joining Wal-Mart, for eight years, I served in 
 Merchandising for Venture Stores, a division of the May Company.  
I hold a Bachelor of Science degree from Brigham Young University 
in Provo, Utah.  
Wal-Mart is based in Bentonville, Arkansas.  Our company employs 
approximately 1.3 million Associates from all 50 states and 
approximately 1.8 million Associates worldwide.  Each week over 
176 million customers worldwide choose to shop at Wal-Mart, which 
we feel reflects the success of our dedication to providing Everyday 
Low Prices to our customers.  Wal-Mart does not just operate stores, 
clubs, and distribution centers in communities; we take a proactive 
stance in community involvement on a number of issues.  

Purpose of Hearing and Wal-Mart's Role 
	As we understand it, there are several purposes of this 
hearing including:  (1) to learn about best practices utilized by 
the private sector to prevent the sale of violent and explicit video 
games to children and to inform parents about video game content 
prior to purchase; (2) to explore potential ways in which to best 
prevent the sale of violent and explicit video games to children and 
to inform parents about video game content prior to purchase.  With 
this understanding, Wal-Mart is eager to share its information and 
experiences.  

Wal-Mart's policies and procedures 
Wal-Mart is pleased to be a part of this process.  We make every 
effort to be a responsible retailer and take the role very 
seriously.  We proactively work to prevent children from obtaining 
mature and adult rated video games as well as to inform parents 
about video game content prior to purchase.   Wal-Mart has taken and 
continues to take voluntary steps to address these issues.  
All of the video games Wal-Mart carries are rated by the 
Entertainment Software Ratings Board (ESRB).  ESRB is responsible 
for rating the content of interactive entertainment software or 
video games.  The rating system is designed to help customers choose 
the right games for their families.  Parent customers report that 
they find the rating system helpful and credible.  According to an 
ESRB nationwide survey of parents, parents agree with the ESRB 
ratings assigned 82 percent of the time.  This is an important 
statistic to Wal-Mart as we look to our customers for guidance.  
First, while Wal-Mart represents about 24 percent of the video 
game sales in the United States, we feel it is important to point 
out that we choose not to carry or sell any video game with an 
"Adult" rating and in 2005 we sold significantly more "Everyone" 
and "Teen" rated video games than we did "Mature" rated video 
games.  Second, we have a process in place to help ensure that only 
customers who are 17 years of age or older can purchase video games 
rated "Mature."  Wal-Mart Associates are not permitted to sell 
"Mature" rated video games to any person under the age of 17 years 
of age, unless the person is accompanied by a parent or guardian.  
Specifically, we have many checkpoints in place to prevent the sale 
of "Mature" rated video games to anyone under the age of 17 years of 
age.  All video games have an ESRB rating symbol on the front of the 
product.  Thus, a "Mature" rating symbol will indicate to the 
Associate that the customer is required to be 17 years of age or 
older to purchase the item.  Further, we have programmed all of our 
cash registers to prompt Associates to check the age of customers 
attempting to purchase "Mature" rated video games.  Upon seeing the 
prompt, the Associate is required to request that the customer 
provide a valid, current, Government issued form of identification.  
If the customer cannot provide a valid, current, Government 
issued form of identification, the Associate must politely decline 
the sale.  
Further, salaried managers, Customer Service Managers and Home 
Entertainment Department Managers are required to ensure that all 
Associates know and understand the requirements for selling "Mature" 
rated video games.   
In addition to monitoring actual sales, Wal-Mart is committed to 
making sure customers are satisfied with their purchases by ensuring 
they understand what they are taking home.  To this end, it is 
policy that all stores have the ESRB rating information posted in 
the electronics area to help customers make informed decisions about 
the video and software games they are purchasing.  Recently, we took 
steps to improve the appearance and visibility of the ESRB rating 
signs.  Further, we use our in-store television network to run 
Public Service Announcements to educate our customers about the 
ESRB ratings system. When we advertise video games in newspaper 
circulars we display the ESRB ratings guide.  Finally, Wal-Mart 
Associates play an important role in this process by explaining the 
rating system and making sure customers are aware of it.  
Compliance with all these guidelines is critical in terms of 
providing excellent customer service, reducing returns from 
surprised" customers, and enhancing customer trust.  Wal-Mart is one 
of the leaders among retailers in terms of its compliance with the 
ESRB ratings and in taking steps to make sure children do not 
purchase video games inappropriately rated for their age.  
Wal-Mart continually works to improve its performance regarding 
the sale of video games.  We are focused on education and ratings 
enforcement and are working on new ideas to educate parents about 
ratings in our advertisements in in-store television monitors.  
Further, we are working with our operations team to train all our 
associates regarding ratings. 
Wal-Mart does not limit its vigilance to in-store sales.  
Walmart.com is one of the leaders in the industry in terms of 
warning signals and prompts that we use throughout the interface 
and checkout flow.  A purchaser of a "Mature" rated video game on 
Walmart.com must check a box confirming they are in fact 17 years 
old or older before they can proceed to our online checkout and 
purchase a "Mature" rated video game.  
It is important to note that self-regulation regarding the ESRB 
ratings and compliance in the retail sector has worked and continues 
to work.   There has been a dramatic improvement among retailers in 
restricting access to inappropriate content by minors.  Specific 
actions that have led to this improvement include the installation 
of digital prompting technology that requires identification at 
the cash register, the installation of clear signage on the retail 
sales floor describing the ratings system, and the dissemination and 
utilization of manuals and documents outlining training for sales 
clerks. 

WAL-MART'S POLICIES AND PROCEDURES ARE EFFICIENT AND EFFECTIVE 
It is important to point out Wal-Mart has policies and procedures in 
place as well as capabilities which allow it to react to the sometimes 
quickly changing environment in retail sales.  If for example, there 
is a sudden need to pull a particular video game from our stores, we 
have the ability to implement that process within minutes.  
For example, recently a video game titled "Oblivion" was originally 
rated "Teen" but was re-rated "Mature" when it was determined to 
contain mature material.  As soon as Wal-Mart was notified of the 
rating change, we immediately pulled the video games from the floor 
in all our stores, moved them to the backroom, re-stickered them with 
a "Mature" rating symbol, and changed our register prompts 
accordingly before placing the video games back on the floor. 
 Further, within minutes of receiving notice from the ESRB regarding 
the hidden content and new "Adult" rating for a recent version 
of "Grand Theft Auto," Wal-Mart stopped all sales of the video 
game, pulled all the video games from the retail sales floor and 
returned them to the supplier.  
	These examples illustrate Wal-Mart's ability to timely 
address any issue that may arise in the sale of video games.  This 
in turn, improves our ability to remain a responsible retailer 
providing excellent customer service, protection to children buying 
video games and information to parents regarding the content of 
video games.  

ADDITIONAL WAL-MART ACTIVITIES AND AFFILIATIONS THAT ARE MAKING A 
DIFFERENCE 
	As a responsible retailer and member of communities across 
the United States, Wal-Mart participates in a variety of activities 
designed to educate and empower parents to make decisions about what 
their kids play, watch and hear.   
	Wal-Mart is a member of Healthy Media Healthy Children which 
is the umbrella organization for PauseParentPlay, a campaign 
designed to empower parents to make decisions about what their kids 
watch, hear and play from television and movies to video games and 
music.  PauseParentPlay is the first comprehensive, nationwide 
movement that joins the entertainment industry with leaders from 
private businesses, Congress and family groups.  PauseParentPlay 
was created about four years ago when several corporate CEOs and 
members of Congress started discussing a private sector initiative 
aimed at helping parents gauge which media is appropriate for their 
children.  Wal-Mart was a founding member motivated by its belief 
that parents should be armed with tools to make the best media 
choices for their children.  U.S. Senators Rick Santorum (R-PA), 
Joseph Lieberman (D-CT), John Ensign (R-NV), and Mark Pryor (D-AR) 
serve as advisors to this bipartisan group. 
	PauseParentPlay continually takes steps to reach parents 
through outlets they use and see everyday such as placing 
advertisements in magazines and placing displays in retail stores 
and other venues.  The advertisements and displays direct the 
parents to the website, www.PauseParentPlay.org  where they will 
find information and tutorials about media tools in an easy-to-use 
format.  The site guides parents through available tools such as 
the v-chip and age and content-based ratings for video games, 
television, movies and music.   The site provides busy parents with 
easy access to all the information they need to make informed 
choices about what their kids play, watch and hear.  
	Further, Wal-Mart is a member of the Entertainment Merchants 
Association (EMA).  The EMA (formerly known as the IEMA and VSDA) is 
committed to parental empowerment programs.  It began in October 
1997, when one of EMA's predecessor organizations endorsed the 
Motion Picture Association of America rating system for motion 
pictures and encouraged its members to enforce the ratings.  Among 
other things, the EMA facilitates the adoption of voluntary 
ratings enforcement by retailers, encourages retailers to educate 
parents about video game ratings through various forms of in-store 
signage and notification, and provides parents with information how 
to make the right entertainment choices for their families. The 
EMA's public education components include media outreach, a ratings 
awareness public service announcement that runs on the in-store 
monitors of more than 10,000 retail establishments, and a website 
that contains the public service announcement, guidelines for 
parents, a PowerPoint presentation about the ratings and labeling 
systems, and other ratings and labeling information.  

Conclusion 
Wal-Mart seeks excellence and responsibility in everything we do. 
 We constantly strive to improve our business processes and to 
enrich the communities in which we are located.  With regard to 
preventing the sale of violent and explicit video games to children 
and educating parents about the content of video games, we believe 
our model works.  We abide by the ESRB ratings and do everything 
possible to prevent children from obtaining inappropriate video 
games and to inform parents about video game content.  
Thank you for your time in allowing me to speak on behalf of 
Wal-Mart on this very important topic.  We look forward to working 
with you to effectively and constructively address this issue. 


MR. STEARNS.  Mr. Lowenstein. 
MR. LOWENSTEIN.  Thank you, Mr. Chairman, members of the 
subcommittee.  I do appreciate the opportunity to be here today.  
I appreciate your commitment, Mr. Chairman, to putting together a 
broad and fair-minded panel, as you always do.  
I was going to focus a little bit on some of the economic issues 
around this industry, but you, more eloquently than I could, in your 
opening prepared statement touched on how important and how big this 
industry is today and how important it has become to the U.S. 
economy.  So let me dive right into some of the issues.  
I have raised two daughters, and I understand the concerns that 
give rise to these hearings about the content of some video games. 
 Some of the entertainment my daughters consumed when they were 
growing up certainly gave me my share of worries.  But I have to 
tell you, in the end I think they were better for having a diverse 
array of content whether I approved of it all or not.  
I also want to say that I lost an uncle to gun violence years ago, 
so I have a personal sense of how powerful and how painful it is to 
be exposed to violence in a profoundly personal way.  
Monitoring what our kids see in this society is not easy.  The video 
game industry is part of a larger puzzle.  In our industry, the 
average game player now is 33 years old.  They are not kids.  And 
that means, just like books, just like movies, just like music, 
just like television, just like painting, just like any other form 
of artistic expression, we produce content for people of all tastes 
and interests.  Some of it is not my cup of tea.  Some of it, I 
think, is extraordinarily powerful and compelling entertainment.  
Some of it clearly is not appropriate for all audiences.  
But context does matter.  And as some of you have mentioned, 85 
percent of all games sold in 2005 were rated as appropriate for 
persons under 17.  
I think it is important to bear in mind when we talk about this 
subsection of games that give rise to this hearing, it is not the 
dominant portion of this market.  Yes, some of them are big 
sellers, undeniably.  And it is impossible to avoid that reality.  
But let us keep this in some kind of context.  And even if there 
is room for disagreement amongst the ratings, and I am sure there 
is, the fact is that almost everyone who has looked at this rating 
system finds overwhelming agreement with the ratings the 
overwhelming portion of the time.  
This brings me back to the central question then, which is, what do 
you do?  And I think our industry has tried from start to finish to 
create a self-regulatory system in partnership with retailers that 
helps parents control, both give them the choices and give them the 
way to control the entertainment that comes into the home.  
You will hear a great deal about the Entertainment Software Rating 
Board.  I am not going to spend too much time on that.  I will note 
that the Chicago Tribune wrote in January of this year that the 
video game industry's rating system is more detailed than those of 
the movie and music industries.  We are proud of that.  There is 
much more information about the content of video games than there 
is about any other media.  It may not be perfect, but we have 
really made a commitment to empowering parents.  
Second, we work with retailers, as Gary Severson has said, to 
create effective self-regulatory systems.  On the FTC data about 
enforcement, I think it is important to note 83 percent of all games 
are sold through just five retailers.  And if you look at the mass 
merchants, which the FTC did, enforcement is up to 65 percent.  That 
is up from 30 percent in just a year.  That is a pretty impressive 
gross.  It is not where it should be.  It is not as high as I would 
like it to be.  
But let us put that in context; if you look at movies, which have 
69 percent effective enforcement of R-rated movies, so video games 
retailers are essentially doing as good a job keeping kids from 
buying "M"-rated games as movie theaters are at keeping kids from 
getting into R-rated movies, and four times better, I might add, 
than retailers are doing keeping kids from buying albums with 
parental warning labels or DVDs rated R or NC 17.  
Finally, the latest video game consoles have parental control 
technologies.  That has been touched on.  The X-Box 360 has it on 
the market now, the PlayStation 3, and the Nintendo, we will have 
it when they come out in the fall.  And I think this is a very 
powerful tool for parents. 
Now, this hearing is focused, understandably, on violent games, and 
we have already seen a tape of Grand Theft Auto, but defining this 
industry based on its most controversial titles, it would be like 
defining the film industry based on Kill Bill, The Texas Chainsaw 
Massacre, and Natural Born Killers; or the music industry based on 
Eminem, 50 Cent and the Dixie Chicks.  
And I would like, with the Chairman's indulgence, to show a brief 
clip of what I think is a representative sample of games that this 
industry produces.  It is going to look a little bit different from 
some of the other clips you have seen, but every one of these games 
we will show is one of the top-selling video games of the last year. 
If we could show the clip.  Thank you.  
[Whereupon a video clip is played.] 
MR. STEARNS.  We will probably need you to wrap it up before we all 
get mesmerized here.  
MR. LOWENSTEIN.  The point of this video is to simply suggest to you 
that there is an enormous variety of games.  The Age of Empires you 
just saw, a historically accurate game about the building of the new 
world; the Sims, the most popular computer game of all time, 50 
percent of the people playing it are women.  There was a lot that we 
offer as an industry.  And no ratings system, no parental control 
technology will work unless the parent is engaged.  But if the parent 
wants to be informed, if the parent wants to be there, then the tools 
are there.  I thank you for the opportunity to be here.  
 [The prepared statement of Douglas Lowenstein follows:]

PREPARED STATEMENT OF DOUGLAS LOWENSTEIN, PRESIDENT, ENTERTAINMENT 
SOFTWARE ASSOCIATION 

Mr. Chairman, Ranking Member Schakowsky, and Members of the 
Subcommittee, I appreciate the opportunity to appear before you 
today.  The Entertainment Software Association represents the $10.3 
billion US computer and video game software industry, the fastest 
growing entertainment industry in the world today.  
Let me put this industry in some context.  Worldwide, the video game 
industry produced $25 billion in revenue in 2004, with Price 
Waterhouse Coopers forecasting that it will hit $55 billion in 
revenue by 2009, far surpassing the global music industry total of 
$34 billion.   A new study prepared for the ESA by U.S. economists 
Bob Crandall of The Brookings Institution and J. Gregory Sidak of 
Criterion Economics reports that the video game industry generated 
$18 billion in direct and indirect economic impacts in 2004 alone, 
concluding: 

"The video game industry has grown into a vibrant business that 
creates thousands of jobs, improves the performance of other 
industries, and spurs technological advancement.  Clearly, 
this is an industry about a lot	more than fun and games. It 
is a serious business that improves training, 	efficiency, and 
productivity in a variety of industries and has led to 	innovation 
in other high-technology industries. Video games play an important 
role in maintaining U.S. leadership in information technology, 
which is critical to the future success of the U.S. economy."  

Indeed, that scanner used by your doctor to diagnose medical 
problems may be powered by a chip developed for the PlayStation 3 
video game system; the demand for high speed broadband and high 
speed wireless networks so critical to the next era of technological 
progress is being driven in part by consumers appetite for online 
and mobile games; and kids seeking careers in video game design are 
being drawn to math and science education, fulfilling a goal of 
policymakers on both sides of the aisle.  
So as this Subcommittee talks about video games, I hope the dialogue 
can be broader than the stereotypical focus on video game violence; 
to be sure, it is a fair topic for discussion, but it should occur 
with an understanding that this industry uniquely fuses together 
advanced technology and boundless creativity, and is central to 
building the innovation and knowledge economy elected officials and 
economists so often talk about.  I have attached the Executive 
Summary of the Crandall-Sidak Report "Video Games: Serious Business 
for America's Economy" for your information.  
I have raised two daughters and I understand the concerns that give 
rise to these hearings about the content of some video games.  As a 
parent, it was a monumental  challenge to, on the one hand protect 
my kids from things that we felt were not appropriate, either 
morally, ethically, or developmentally, while on the other hand 
ensuring that they were exposed to a full range of ideas and 
expression, including that which we might personally find 
distasteful.  My kids saw movies, read books, watched TV, saw 
things on the news, heard political speeches and, yes, played video 
games that caused me more than my share of worry.  Some of this 
I was able to prevent, some of it I could not control.  But in the 
end, I think they are better for it.  As Federal Judge Richard 
Posner said in striking down an effort by the City of Indianapolis 
to ban violent arcade games, "To shield children right up to the 
age of 18 from exposure to violent descriptions and images would 
not only be quixotic, but deforming; it would leave them unequipped 
to cope with the world as we know it."  
As parents, we know that video games are among a wide range of 
cultural, social, emotional, psychological and political factors 
that shape our children.  And they cannot be viewed in isolation 
from all these other forces swirling around a child.  And if Judge 
Posner is right that it is neither wise nor possible to shield our 
kids from everything and anything we might find objectionable, we 
must find a way to empower parents to make good video game choices 
for their families. 
I don't pretend it is easy.  We are well past the days when parents 
merely had to sort through Mario and Pac Man.  You might be 
surprised to learn that the average age of people playing games is 
not 12, or 15, or even 20.  It is 33 years old.  And even when we 
eliminate people who mainly play solitaire, the average age remains 
in the late twenties.   
So like other forms of entertainment, we serve a mass market 
audience; the core market for video games is between 18-35 years 
old.  And while there are many video games that provide a stunning 
and enriching entertainment and educational experience with little 
objectionable content, there are also some that are clearly not 
appropriate for younger children.  That's another way video games 
are just like books, movies, music, TV, paintings and other forms 
of artistic expression.  We make games for all ages and tastes; 
some are brilliant, others, to put it politely, do not ennoble our 
culture.  
But defining the video game industry based on its most controversial 
titles would be like showing clips of Kill Bill, Texas Chainsaw 
Massacre, and Natural Born Killers and calling it representative 
of the film industry, or playing only the music of Eminem, 50 Cent, 
and The Dixie Chicks and calling it representative of the music 
industry, or defining Congress by the behavior of its least ethical 
member.  
In fact, 85% of all games sold in 2005 were rated appropriate for 
persons under 17, and only 15% were rated Mature.  That means there 
is a vast array of quality entertainment ranging from Nintendogs to 
Madden Football, from World of Warcraft to Super Mario, from Star 
Wars Battlefront to Shrek 2, from The Sponge Bob Movie to Tom 
Clancy's Ghost Recon, from The Sims to Roller Coaster Tycoon, from 
Call of Duty to Gran Turismo.  This expanding variety of offerings 
explains not only why games are played by people of all ages, but 
why one-third of game players are female, and one half of all those 
who play online games are adult women. 
This brings me back to the central question: how can parents do 
their jobs when it comes to video games?  
We have tried to create a "cradle-to-crave" self regulatory system, 
in partnership with retailers, which gives parents both choice and 
control over the games their kids play.  How the tools are used 
and the controls exercised is ultimately the responsibility of 
parents.  
 First, as you will hear in great detail from Patricia Vance, 
President of the Entertainment Software Rating Board (ESRB), we 
have created a superior rating, advertising, and enforcement system 
to give parents accurate information about the age appropriateness 
and content of every game sold in the United States.  The Chicago 
Tribune wrote in January, 2007, that "The video game industry's 
rating system is more detailed than those of the movie and music 
industries."  Considering that the FTC reports parents are involved 
in game purchases and rentals more than eight out of ten times, 
the use of ESRB ratings by parents is the first line of defense in 
regulating the games kids play.  
Second, we have worked with retailers to ensure that they 
implement voluntary programs to require IDs from any minor seeking 
to purchase Mature or Adult Only rated games, and to post visible 
signage at the point of sale about the ESRB rating system (we have 
even supported laws in several states that require retail signage). 
You will hear testimony from Wal-Mart about these commitments.  The 
latest FTC study found that national retailers successfully prevent 
minors from buying Mature or Adult Only games 65% of the time, 
nearly the same level of success as theater owners have in keeping 
kids out of R rated movies, and more than four times better than is 
the case with sales of R rated DVDs. 
Third, game console manufacturers have stepped up with technological 
solutions to further help parents regulate the games their kids 
play.  The newest video game consoles -- the X-Box 360 available 
now, and the Sony PlayStation 3 and the Nintendo Wii, available this 
November -- will all provide password protected parent control 
technology to enable parents to prevent games with inappropriate 
ratings from loading on the systems.  Similar software is already 
available for the PC. 

In sum, parents can use ratings to make appropriate game purchases, 
they can rely increasingly on retailers not to sell inappropriate 
games directly to minors, and if they own the newest consoles they 
can program them to prevent kids from playing games with 
inappropriate ratings.  
I am aware that there are critics who say the ratings are not 
reliable, or that they are incomplete.  But as Jack Valenti used to 
say far more eloquently than I, ratings are not Euclidean geometry.  
There is no formula that ensures a right answer at the end.  We have 
sought to create a video game rating system parents can trust, and 
by all evidence we have succeeded.  Not only does the Peter Hart 
survey funded by ESRB each year show broad parental agreement with 
ESRB rating decisions, the Kaiser Foundation has reported that more 
parents (53%) find the video game rating system "very useful" than 
any other rating system, including movies.  Overall, 91% of parents 
say the ratings are "very useful" or "somewhat useful."  
Here's the bottom line: no rating system known to man will meet with 
universal approval.  Ratings are, by definition, subjective.  We 
live in a pluralistic culture where people bring their own values 
and morals to all manner of issues, including the entertainment 
content they find appropriate for their families.  Our industry seeks 
to provide mainstream information that allows informed choice; we do 
not seek to tell people what is right or wrong for them, and we 
welcome alternatives such as revues posted by NIMF, Common Sense, 
and other groups.  
Ratings are important, but so is honest debate.  And too often, 
critics of the industry seek to justify attacks on the industry by 
selectively citing research they claim establishes a definitive link 
between violent games and aggressive and criminal behavior.  I don't 
want to dwell on this subject here, but I have attached to my 
testimony some background information on the research in this field. 
Suffice it to say that six federal judges in five circuits, 
judges appointed by Democrats and Republicans alike, have struck 
down bills seeking to ban video game sales.  Apart from issuing 
clarion statements establishing that video games are a form of 
artistic expression protected by the First Amendment, every one of 
these jurists has dismissed the weak and flawed science advanced by 
video game critics, including some at today's hearing, as a basis 
for state regulation.  
For example, after holding a hearing at which the state's academic 
experts took their best shot at proving that violent games cause 
aggression, the District Court in Illinois last December concluded 
that there is "no solid causal link between violent video game 
exposure and aggressive thinking and behavior."  Further, it said 
even if one accepts a connection, "there is no evidence that this 
effect is at all significant."  Finally, after analyzing the brain 
mapping studies cited by so many anti-video game researchers, the 
court said dismissively, that it found the author of the leading 
research in the field "unpersuasive" and that there is "no basis 
to permit a reasonable conclusion that" video games produce changes 
in the brain that could make players more aggressive. 
Regarding crime, Harvard researcher Dr. Cheryl Olson wrote in the 
journal Academic Psychiatry in 2004 that "it's very difficult to 
document whether and how violent video and computer games 
contribute to serious violence such as criminal assault and 
murder...." Similarly, Dr. Joanne Savage, writing in the journal 
Aggression and Violent Behavior on whether viewing violent media 
really causes criminal violence said: "The question addressed here 
is not whether or not the effect is plausible, but whether the 
effect has been demonstrated convincingly in the scientific 
literature-and the answer is 'not so far.'...At this point it must 
be said, however, that there is little evidence in favor of focusing 
on media violence as a means of remedying our violent crime problem." 
I want to leave you with this thought: In the year 2010, there will 
be 75 million Americans between the ages of 10 and 30 - as many in 
this millennium generation as in the Baby Boom Generation - and 
everyone of them will have grown up with video games as a central 
part of their DNA.  Even today, ESA data shows that 35% of American 
parents play video games, and 80% of them play with their kids.  
Video games are the rock and roll music for the digital generation 
and Halo and The Sims and Zelda are their Beatles and Rolling 
Stones. Indeed, a decade from now, many of your colleagues on that 
dais will be gamers and they will be uniquely comfortable with 
technology and interactivity.  Video games are taking their place 
alongside other forms of mainstream popular entertainment.  As an 
industry, that means we have a responsibility to inform and empower 
our consumers; at the same time, I hope it encourages public 
officials to join in that important effort, and not devote time to 
demonizing an industry which is at once so central to tens of 
millions of Americans, and one so important to America's technology 
future.  
Thank you.  


MR. STEARNS.  Thank you.  
Ms. Vance.
MS. VANCE.  Before I begin, I would like to thank Chairman Stearns 
and the entire committee for the invitation to appear today.  We 
applaud and strongly support your commitment to inform parents about 
the games that they choose to bring into their homes.  I respectfully 
request that my statements, both oral and written, along with 
instructive appendices, be made a part of the hearing record. 
MR. STEARNS.  By unanimous consent, so ordered.  
MS. VANCE.  The ESRB rating system consists of six age-based rating 
categories with breaks at 3, 6, 10, 13, 17, and 18 years of age.  
Rating symbols appear on the front and back of each game package, 
and in addition, wherever appropriate, ESRB assigns one or more 
content descriptors that appear prominently on the back of the box 
next to the rating.  
Kinds of descriptors, of which there are over 30 currently in use, 
indicate elements in a game that may have triggered a rating or may 
be of interest or concern to consumers, especially parents.  
While games that are rated for mature audiences tend to get a 
disproportionately high amount of media attention, the reality is 
that most of the titles rated by the ESRB receive a rating of "E" or 
"Everyone", and only about 12 percent are recommended for players 17 
or older, a percentage that has remained constant for the last 2 
years.  In fact, in 2005, not one "Mature"-rated game was listed 
among the top 10-selling computer or video games.  
Virtually every computer and video game sold in the U.S. today 
carries an ESRB rating.  The Council of Manufacturers will not 
permit games to be published on their system without an ESRB rating, 
and most major retailers choose to only stock games that have been 
rated by our organization.  
ESRB's highest priority is ensuring that the ratings we assign are 
accurate and useful to parents.  Each year we conduct consumer 
research with parents in 10 different markets across the U.S. 
to measure agreement with the ESRB rating assignments.  It is 
critical that our ratings reflect mainstream American tastes and 
values, especially among parents of children who play video games. 
Indeed agreement with ESRB ratings has never been higher; 82 
percent of parents agree with our ratings, and another 5 percent 
think the ratings are too strict.  These findings are supported by 
a 2004 report by the Henry J. Kaiser Family Foundation that found 
that among all entertainment rating systems, TV, movies, music, and 
games, parents found the ESRB ratings to be the most useful, with 
the majority of parents surveyed finding them to be, quote/unquote, 
"very useful."  Moreover the national PTA has called the ESRB 
ratings an extremely useful and informative tool and urges parents 
to check the ratings whenever buying game.  
Ratings accuracy is solely dependent on our raters' access to all 
pertinent game content, including the most extreme, no matter how 
hard it may be to find when playing the game.  Many of today's 
games can take upwards of 50 or even 100 hours to play all the way 
through.  Given the length and complexity of games, playing every 
game as part of the ratings process, be it for 1 hour, as Professor 
Thompson did in her study, or 10, would provide no assurances 
whatsoever that all pertinent content is being considered in the 
assignment of a rating.  That is why we require game publishers to 
fully disclose to the ESRB in detail, in writing as well as on 
videotape, exactly what is in their game, even content that may be 
hidden to the player.  
This includes the most extreme instances of pertinent content across 
a broad range of categories, including violence, sexual, or 
suggestive themes; language; depiction and use of a controlled 
substance; gambling, and more.  Publishers must also provide 
information on the frequency of such content, key missions and 
objectives in the game, and unique interactive elements such as 
the reward system and player control.  
After a game ships, if disclosure is found to have been incomplete, 
recent enhancements to the ESRB enforcement system will soon allow 
for the imposition of fines up to $1 million.  The power to impose 
substantial monetary and nonmonetary penalties which may include 
the revocation of ratings services altogether for repeat offenders, 
combined with corrective actions that can essentially mount to a 
full product recall, serve as a tremendous disincentive for any 
publisher to even consider not disclosing all pertinent content.  
As the FDC has noted, ESRB enforcement system is unique in its 
scope and severity among entertainment rating systems.  While 
certain critics like Professor Thompson and Dr. Walsh continue to 
try to discredit the ESRB ratings, the fact is that far more often 
than not, Dr. Walsh's organization and other advocacy groups' age 
recommendations match our ratings exactly, or very slightly by only 
a year or two at the most.  Similarly, Professor Thompson's research 
never claims that our age recommendations are inappropriate, just 
that she would prefer we list all content in the game instead of 
that which our raters have determined is the most important to 
communicate to the consumer.  
Professor Thompson's studies are based on completely different 
criteria than the ESRB uses to assign content descriptors, and there 
is no evidence that her personal opinions on how to assign them 
are representative of public opinion.  Case in point, her first 
study claimed that 62 percent of the game play in Pac-Man is, 
quote/unquote, "violent."  I would imagine that most parents and 
perhaps even many of you would disagree with such an assessment.  
So are parents paying attention to the ratings?  In a study conducted 
earlier this year by Peter Hart Research, we found that 83 percent 
of parents with children who play games are aware of the ESRB 
ratings, and 3 out of 4 use them regularly when buying games.  
Furthermore, more than half of parents surveyed said they never 
allow their kids to play games rated "M" for "Mature", and parents 
are twice as likely to ban "M" games when their kids are under the 
age of 13. 
Despite the high awareness and use of the system, we continue to 
put significant resources into marketing and education initiatives 
to encourage parents to use the ratings every time they buy a game. 
 We have received broad media support for our print and radio PSA 
campaigns, audio news releases, satellite, television, and radio 
media tours, and will shortly be launching a new initiative with 
the national PTA.  
In addition, ESRB retail partnership program currently spanning 18 
different national retailers generates over a billion consumer 
impressions each year, educating customers about our ratings.  
We also encourage and support retailer policies with respect to 
the sale of "M"-rated games, and we are very pleased that the 
FTC's most recent mystery shopper audit showed significant 
progress that national retailers are making in enforcing their 
store policies, which now matches the level of restrictions for 
R-rated films in movie theaters at 65 percent of the time. 
MR. STEARNS.  I will need you to sum up.  
MS. VANCE.  However, although there has been a significant focus 
by industry critics on retail enforcement, it is also important 
to note that the FTC reported in 2000 that the adults are involved 
in the purchase of video games 83 percent of the time.  
I would like to close today by simply stating that nobody takes 
these issues more seriously than we do.  ESRB values immensely the 
trust that millions of parents have placed in the ratings that we 
assign, and the vast majority of parents can and do make sensible 
choices about the games their children play, and our ratings 
consistently play a critical part in those informed decision.  That 
being said, we all can and should work more cooperatively to ensure 
that parents are aware of and are using the tools at their 
disposal.  
Thank you for having me here today. 
MR. STEARNS.  Thank you.  
[The prepared statement of Patricia E. Vance follows:] 


PREPARED STATEMENT OF PATRICIA E. VANCE, PRESIDENT, ENTERTAINMENT 
SOFTWARE RATING BOARD 


MR. STEARNS.  Dr. Thompson, welcome. 
DR. THOMPSON.  Thank you.  Mr. Chairman and members of the 
subcommittee, thank you very much for inviting me here today.  
I appreciate the opportunity to talk with you.  As a parent, 
consumer, educator and active academic researcher on media 
content, and videos specifically, I welcome the opportunity to 
comment on the observations that we have made about the content 
and ratings of video games in the context of our peer-reviewed 
studies and questions that I believe that the industry and the 
ESRB should address related to the process for rated games.  So 
in the context of our studies which are attached to the statement 
I have submitted to you, I just want to give you a few of the 
highlights of some of our results.  
In our study of "E"-rated games, those are games rated for 6 and up, 
we found that 64 percent of those games contained violence with 
injuring characters rewarded or required for advancement in those 
games.  So talking about incentives, as Mr. Murphy raised, we are 
finding evidence of that starting in the "E"-rated games at 60 
percent of those games rewarding violent game play.  
We also in our study of "Teen"-rated games observed content that we 
thought could warrant an ESRB content descriptor in almost half of 
the games for which ESRB had not assigned a content descriptor.  
Let me put in context that what we do is we take a random sample 
of the games.  We play them.  We record the game play and code that 
game play so that what we can do is compare what we find in the 
actual game play to what the ESRB discloses in the ratings.  Because 
we play them, we are able to then see games where they have assigned 
a content descriptor and compare the content that they have given 
those content descriptors to games where they have not.  And we see 
similar content where they have assigned those kind of descriptors 
and then games where we think they should have it, but that is not 
assigned.  So it is not like it is just based on my personal opinion 
on any individual game.  This is based on a rigorous scientific 
method.  
In our study of "Teen"-rated games, we found that 98 percent of the 
games involved intentional violence, with 36 percent of the game 
play time involving violence.  And just to give you a number that 
puts the violence in terms of a death toll, over the entire sample 
we found that the players were viewing, or in many cases 
instigating, virtual human deaths at a rate of 61 deaths per hour 
of game play.  That is a virtual human death per minute.  
In our sample of "M"-rated video games that we played, we observed 
content that we thought could warrant an ESRB content descriptor in 
81 percent of the games for which the ESRB had not assigned a 
content descriptor.  We found that all the games contained 
intentional acts of violence.  And in this case 78 percent of the 
games rewarded or required the player to destroy objects, 100 percent 
rewarded or required the player to injure characters, and 92 percent 
rewarded or required the player to kill.  In this context we again 
had 104 virtual human deaths per hour.  We are seeing a lot of 
deaths in these games.  
We consistently find that the games contain a significant amount of 
violent and explicit content that may be of concern to parents, and 
it is, in our opinion, inconsistently labeled by the Rating Board.  
Given this research, I believe that there are several important 
improvements in the rating system that are needed, and I hope that 
this committee will ask questions about the ratings to ensure that 
the industry, in fact, has the right incentives to improve them.  
Point number one is that I believe the ESRB should play each and 
every game prior to assigning its age-based ratings and content 
descriptors.  We have said since our 2001 study on "E"-rated games 
that we thought the ESRB should make playing games part of its 
ratings process.  And we specifically said in one of our 2004 
studies on "Teen"-rated games, "Our results also suggest the ESRB 
should play the video games as part of its rating process to provide 
a means to ensure the absence of content other than that indicated 
by the material submitted to the ESRB by the game manufacturers.  
However, we emphasize that game manufacturers should continue to 
provide all the information they currently provide to the ESRB 
because the rater should not have to play the entire game prior 
to assigning the rating; anyone playing the game could miss specific 
content." 
Thus, to be completely clear, we suggest the ESRB should play the 
finished game as it would be played by consumers before assigning 
its ratings, in addition to its current process of collecting 
information from the publishers.  We have not stipulated any length 
of time they should play, nor have we said the raters themselves 
must play.  We remain very concerned, however, that the inability 
of the ESRB to play the games prior to assigning its ratings means 
the ESRB cannot independently evaluate the content of games, which 
in turn undermines consumer confidence in the ratings.  
We also are not able to determine whether the mismatch between our 
observations and the ESRB content descriptors results from a failure 
of publishers to disclose content to the ESRB, the ESRB's decisions 
not to provide content descriptors that we would expect based on its 
definitions and what we observe in other games that receive the same 
ESRB content descriptors, or if the game content changes between the 
assignment of the ratings and the packaging of the final product.  
Thus, we believe the ESRB should play the finished games before it 
assigns ratings, and we believe the recent decision by the ESRB to 
re-rate Elder Scrolls IV:  Oblivion, which was mentioned earlier, 
from "Teen" to "Mature" clearly demonstrates that playing the game 
made a difference.  What was unfortunate in this case, and also, 
of course, in the case of San Andreas, is that those games were 
extensively sold, marketed, and played prior to the time the 
correction was made.  So obviously this is an important concern 
for the committee.  
Point number two is I believe the ESRB should make its rating 
process and the terms that it uses in its ratings more transparent.  
Our studies point to the need for clear, consistent, and 
well-communicated criteria for assigning age-based ratings and 
content descriptors.  Our studies rely on playing the actual games, 
coding them, and comparing the observed content to what we observe 
in other games based on the ESRB's published information.  
We believe that more clarity and transparency would be very helpful 
to the industry as well.  For example, in response to its decision 
to change the Elder Scrolls rating on Oblivion, our impression, the 
comments made by Bethesda Softworks, they said they felt they had 
properly disclosed to the ESRB.  So again, we think that having 
clear, transparent criteria is not only good for parents, it is 
probably also good for the industry as well.  We do not think we 
allow the same kind of ambiguity with ingredients in foods, and 
why should we allow them in quality of our ratings for media 
products?  
Our studies consistently find content that is labeled in some games 
and not others.  We think some of the lack of consistency clearly 
derives from the lack of transparency in the process and definition. 
 The ESRB has also stated in its press release responding to our 
most recent study on "M"-rated games that it has "repeatedly 
informed us about flaws in our methodology."  And for the record, I 
would like to emphasize that the ESRB has never provided any 
scientific basis for its allegations about flaws in our methods, 
and we were very surprised to see the ESRB make such statements.  
We asked the ESRB to provide evidence of this assertion, and we 
believe that their assertion of "flaws" in our methods is a very 
serious scientific allegation.  
We have met with the ESRB on several occasions to discuss our 
research, and the ESRB has not provided us with any scientific 
evidence of flaws in our research.  The ESRB has also failed to 
provide us with any information about their specific criteria for 
applying ratings beyond what is available on the ESRB Web site.  
If the ESRB provided us with this information, we could use it as a 
basis for comparison to our methods.  
We believe that Members of this Congress, parents, and the media 
should ask the ESRB to make public its specific criteria for 
assigning ratings and content descriptors.  The ESRB requires game 
 manufacturers to provide examples of the most extreme content, but 
do they do so?  How would we know?  And should parents expect the 
content descriptors to provide information about all types of 
content and games, or have the content descriptors now become like 
the MPAA rating reasons, indicating only some of the content?  
With the information to parents very unclear on this, and parents 
and kids easily able to observe omissions as they experience 
actual game play, the ESRB, in my opinion, should focus much more 
on ensuring the quality of its information and worry less on 
promoting its ratings system. 
MR. STEARNS.  Dr. Thompson, we will need you to wrap up. 
DR. THOMPSON.  I believe the members of this committee should ask 
the ESRB to provide in writing the specific actual criteria that 
ESRB uses.  On the point of accuracy, the ESRB, I believe, should 
also make clear what it believes is possible with respect to 
accuracy of the ratings.  It does say in its mission, and I believe 
this mission is right, that it is striving to provide consumers, 
especially parents, with accurate and objective information about 
the age suitability and content of computer and video games so they 
can make informed decisions.  But I believe that it is important to 
realize that the ESRB is inconsistent again in this area.  
For example, the ESRB said in its recent communication to the FTC 
that it regularly commissions the Peter Hart Research Associates to 
conduct surveys on awareness, use and validity, not the accuracy of 
ratings.  It is in stark contrast also to the ESRB's press release, 
which was titled "New Study Shows Parents Overwhelmingly Agree with 
Video Game Ratings, ESRB Ratings Found to Be Highly Accurate."  
So again, I believe members of this committee should ask the ESRB 
to clarify its position on accuracy and objectivity in its ratings, 
and that the Federal Trade Commission should continue to conduct its 
own studies.  
Finally, I think one of the most important things the ESRB needs to 
do is distinguish real peer-reviewed scientific studies from 
nonpublicly available market research that it commissions.  With 
respect to the Peter Hart market surveys which Ms. Vance just 
mentioned, the ESRB commission says they are not peer-reviewed, they 
are not published, and they are not publicly available.  And in this 
regard they are not comparable to the study of scientific work that 
we do.  
We also note that the Federal Register--and you can find all of the 
citations to all of these quotes in my statement--says that "the 
ESRB's validity studies involve the display of 1 or 2 minutes of 
video game play to parents of children who play video games.  The 
brevity of these clips may limit the use of the results because 
games typically take many hours to complete.  Moreover, it is 
unknown whether the content selected for these brief video clips 
fully represents the full range of content that causes the ESRB, 
whose raters rely on more extensive footage of game play as well 
as the publisher's responses, to assign a particular game rating." 
MR. STEARNS.  Dr. Thompson, I will probably have you sum up.  
DR. THOMPSON.  Yeah, yeah.  Sorry.  
MR. STEARNS.  Your entire statement will be made a part of the 
record.  DR. THOMPSON.  So I appreciate the opportunity to speak 
here.  I do think you should ask them to submit evidence that allows 
independent researchers to review anything they submit as a study 
which is otherwise not peer-reviewable.  And also it is important 
for all of us who believe in self-regulation to make sure the system 
is working as well as it can. 
MR. STEARNS.  Thank you.  
[The prepared statement of Dr. Kimberly M. Thompson follows:] 

PREPARED STATEMENT OF DR. KIMBERLY M. THOMPSON, DIRECTOR, KIDS RISK 
PROJECT, ASSOCIATE PROFESSOR OF RISK ANALYSIS AND DECISION SCIENCE, 
DEPARTMENT OF HEALTH POLICY AND MANAGEMENT, HARVARD UNIVERSITY 

Mr. Chairman and members of the Subcommittee, thank you very much for 
recognizing the important role of media in the lives of children and 
for inviting me to present my views on the violent and explicit video 
games: informing parents and protecting children. As a parent, 
consumer, educator, and active academic researcher on media content 
and video games specifically, I welcome the opportunity to comment on: 
1 . the observations that we have made about content and ratings of 
video games in the context of our peer-reviewed studies 
2.  questions that I believe are important for the video game rating 
board to address related to its process for rating games 
Over the past several years, my research group at the Harvard School 
of Public Health has conducted several studies that quantitatively 
evaluated the actual content of video games. This work includes 
studies on violence in E-rated, T-rated video games, and M-rated 
video games. Each of these studies yielded significant insights 
including: 
1. We found that 35 of the 55 (64%) E-rated (for "Everyone") video 
games studied contained violence 
(http://www.kidsrisk.harvard.edu/faqs3.htm), with injuring 
characters rewarded or required for advancement in 33 games (60%). 
2.  We observed content that could warrant an ESRB content 
descriptor in 39 out of 81 games (48%) T-rated (for "Teen") video 
games for which the ESRB had not assigned a content descriptor, and 
we did not observe the content indicated by an ESRB content 
descriptor within one hour of game play for seven games. These games 
may be a source of exposure to a wide range of unexpected content 
 (http://www.kidsrisk.harvard.edu/faqs4.htm). 
3.  In the random sample of 81 T-rated video games we played: 
79 games (98%) involved intentional violence, representing 36% of 
game play time, 73 games (90%) rewarded or required the player to 
injure characters, 56 games (69%) rewarded or required the player 
to kill, and we observed 5,689 human deaths for these 81 games, 
occurring at an average rate of 61 human deaths per hour of game 
play time (http://www.kidsrisk.harvard.edu/faqs5.htm). 
4.  In a random sample of M-rated video games we played, we observed 
content that could warrant an ESRB content descriptor in 81% of these 
for which the ESRB had not assigned a content descriptor 
 (http://www.kidsrisk.harvard.edu/faqs8.html). 
We consistently find that the games contain a significant amount of 
violence and explicit content that may be of concern to parents, 
which is inconsistently labeled by the rating board.  I would be 
happy to show the members of the Subcommittee examples of some of 
the unlabeled content that we have observed.  
Given this research, we believe that several improvements in the 
rating system are needed, and that Congress should ensure that the 
industry has incentives to improve its ratings: 
1.  The ESRB should play each and every game prior to assigning its 
age-based ratings and content descriptors.  We have said since our 
2001 study on E-rated video games that we thought the ESRB should 
make playing the games part of the rating process. We specifically 
said in one of our 2004 studies on T-rated games that "Our results 
also suggest that the ESRB should play the video games as part of 
its rating process to provide a means to ensure the absence of 
content other than that indicated in the materials submitted to the 
ESRB by the game manufacturers. However, we emphasize that game 
manufacturers should continue to provide all of the information that 
they currently provide to the ESRB because the raters should not 
have to play the entire game prior to assigning a rating; anyone 
playing the games could miss specific content." Thus, to be 
completely clear, we suggest that the ESRB should play the 
finished game before assigning its ratings, in addition to its 
current process of collecting information from publishers. We have 
not stipulated the length of game play time, nor have we said that 
the raters themselves must play the game. We remain concerned, 
however, that the inability of the ESRB to play the finished games 
prior to assigning its ratings means that the ESRB cannot 
independently evaluate the content of games, which in turn may 
undermine consumer confidence in the ratings. We are not able to 
determine whether the mismatch between our observations and the ESRB 
content descriptors results from failure of the publishers to 
disclose content to the ESRB, the ESRB's decisions not to provide 
content descriptors that we would expect based on its definitions 
and what we observe in other games that received the same ESRB 
content descriptors, or if the game content changes between the 
assignment of the ratings and packaging of the final product. Thus, 
we believe that the ESRB should play the finished games before it 
assigns its ratings.  We believe that the ESRB's recent decision to 
change its rating of Elder Scrolls IV: Oblivion from Teen to Mature 
clearly demonstrates that playing the game makes a difference. What 
is unfortunate in this case is that the ESRB found the more detailed 
depictions of blood and gore in the Xbox 360 version after assigning 
its ratings and content descriptors and after the game has already 
been sold extensively with the Teen rating. It should be noted, 
however, that the Teen-rated version of the game also received a 
content descriptor for "Blood and Gore," which raises legitimate 
questions about where the ESRB draws the line between Teen-rated 
video games and Mature-rated video games.  In our quantitative 
studies of T-rated and M-rated games, we have observed significantly 
more blood depicted in M-rated games, but similar amounts of 
violence. 
2.  The ESRB should make its rating process and the terms that it 
uses in its ratings more transparent. Our studies point to the need 
for clear, consistent, and well-communicated criteria for assigning 
age-based ratings and content descriptors. Our studies rely on 
playing the actual games, coding all of the content using 
definitions that we publish in our papers, and comparing the 
observed content to what we observe in other games and based on the 
ESRB's published information.  We believe that more clarity and 
transparency would also be helpful to the industry.  For example, 
in response to its decision to change the rating of Elder Scrolls 
IV: Oblivion, our impression based on Bethesda Softworks' response 
is that they felt that they had properly disclosed the content to 
the ESRB (see their press release at: http://www.bethsoft.com/news/pressrelease_050306.htm).  The bottom 
line here is that consumers need to know what the ratings do and do 
not tell them.  We don't allow ambiguity in the ingredients on 
foods, why should we be so tolerant of low quality in the ratings on 
media products?  Our studies consistently find content that is 
labeled in some games and not in others.  Some of this lack of 
consistency clearly derives from lack of transparency in the process 
and definitions. 
The ESRB also stated in its press release responding to our recent 
study on M-rated games that it has "repeatedly informed" us about 
flaws in your methodology. For the record, I would like to emphasize 
that the ESRB has never provided any scientific basis for its 
allegations about flaws in our methods and we were very surprised to 
see the ESRB make such statements. We asked the ESRB to provide 
evidence for this assertion and we believe that their assertion of 
"flaws" in our methods is a very serious scientific allegation. We 
have met with the ESRB on several occasions to discuss our research 
and the ESRB has not provided us with any scientific evidence of 
flaws in our research.  The ESRB has also failed to provide us with 
any information about their specific criteria for applying ratings 
beyond what is available on the ESRB website; if the ESRB provided 
us with this information, we could use it as a basis for comparison 
to our methods. We believe that members of Congress, parents, and 
the media should ask the ESRB to make public its specific criteria 
for assigning ratings and content descriptors. The ESRB requires 
game manufacturers to provide examples of the most extreme content, 
but do they do so?  Should parents expect the content descriptors to 
provide information about all of the types of content in the games, 
or have the content descriptors now become more like the MPAA's 
rating reasons indicating only some of the content? With the 
information to parents very unclear on this, and parents and kids 
easily able to observe omissions as they experience actual game play, 
the ESRB should in my opinion focus more on ensuring the quality of 
its information and worry less about its advertising. 
3.  The ESRB needs to decide whether it believes that ratings can be 
"accurate" or not and make clear what it means.  I believe that the 
ESRB has the right mission, which according to its website is: "To 
provide consumers, especially parents, with accurate and objective 
information about the age suitability and content of computer and 
video games so they can make informed purchase decisions" 
(http://www.esrb.org/about/index.jsp). I believe that accurate and 
objective information is essential, and I am concerned with 
inconsistencies in the ESRB ratings and in what the ESRB says about 
its ratings system. For example, on page 2 of its recent comments to 
the FTC, the ESRB wrote that: "The ESRB regularly commissions 
Peter D. Hart Research Associates to conduct surveys on awareness, 
use and validity - not the accuracy - of the ratings" 
(http://www.ftc.gov/os/comments/entertainindstrystudy/051123esrb.pdf). 
This is in stark contrast to the ESRB's November 22, 2004 press 
release about this same commissioned survey that was titled: "New 
Study Shows Parents Overwhelmingly Agree with Video Game Ratings - 
ESRB Ratings Found to be 'Highly Accurate.'" 
(http://www.esrb.org/about/news/downloads/validity_study_11_22_04.pdf). 
   4.  The ESRB needs to distinguish real peer-reviewed scientific 
studies from non-publicly available market research that it 
commissions.  With respect to the ESRB-commissioned Peter Hart market 
surveys, we emphasize that these surveys are not peer-reviewed, 
published, or publicly available.  In this regard, they are not 
scientific studies that can be compared with our research.  We are 
not able to review the methods used, questions asked, or analyses 
performed, but we believe that these surveys do not ask parents 
about the ESRB's assignment of content descriptors and they do not 
show parents the same information that is provided to the ESRB 
raters.  Note that the March 30, 2006 Federal Register (footnote 16 
on page 16156) states that: "The ESRB's validity studies involve the 
display of one to two minute clips of video game play to parents of 
children who play video games. The brevity of these clips may limit 
the use of the results because games typically take many hours to 
complete. Moreover, it is unknown whether the content selected for 
these brief video clips fully represents the range and frequency of 
content that caused the ESRB (whose raters rely on more extensive 
footage of game play as well as the publisher's responses to a 
detailed questionnaire) to assign the game a particular rating." 
 (http://www.ftc.gov/os/2006/03/060330frnsurveyvideoesrb.pdf) 
Given the important role of the media ratings as the current strategy 
in our self-regulatory system - a system that gives us all the 
freedoms to create and to choose media and that reflects values 
deeply held by all Americans - I believe that Congress must hold 
the industry accountable for the quality of the information that it 
provides to consumers and ensure that the system works and protects 
children. Freedom depends on responsibility. 
In my view, many of the current problems with the existing systems 
derive from a lack of a scientific and research-based foundation for 
providing ratings information. A rigorous system of ratings must 
begin with some standard definitions that can be used to classify 
content and to clearly and consistently inform parents. While these 
definitions and classifying content includes subjectivity, that's 
no excuse for not trying to be as objective as possible. Our studies 
have demonstrated that using consistent definitions can work and 
provide comparative information, and I believe that it's time for 
the industry to start to perform its own content analyses and 
accurately report the ingredients of its products to consumers. 
I believe that the industry can better label its products and in 
doing so help parents make better choices, and that this is required 
as media continue to push the boundaries and consume more time in 
the lives of our children.  Thank you very much again for the 
opportunity to testify today. 

References: 
1.  Thompson KM, Haninger K. Violence in E-rated video games. 
Journal of the American Medical Association 2001;286(5):591-598. 
See related letter at: Journal of the American Medical Association 
2001;286(16):1972. 
2. Haninger K, Thompson, KM. Content and Ratings of Teen-Rated Video 
Games. Journal of the American Medical Association 
2004;291(7):856-865. 
3. Haninger K, Ryan MS, Thompson KM. Violence in Teen-Rated Video 
Games. Medscape General Medicine 2004(March 11);6(1). (Available 
at: http://www.medscape.com/viewarticle/468087). 
4. Thompson KM, Tepichin K, Haninger K.  Content and Ratings of 
Mature-Rated Video Games.  Archives of Pediatrics and Adolescent 
Medicine 2006; 160:402-410 

MR. STEARNS.  Dr. Buckleitner.
DR. BUCKLEITNER.  Thank you, Mr. Chairman.  For the record, I was 
Fred Upton's paperboy.  You have done well, Fred.  
It is an honor to testify today.  I appear before you as an 
independent software reviewer, a library trustee, a former teacher, 
and a parent of two daughters.  But I guess the reason I am here 
today is because I play a lot of games, about 7,308 as of yesterday, 
as editor of a software review publication.  I started reviewing 
software in 1984 on an Apple II.  I have traveled the Oregon Trail.  
I have hunted for Carmen San Diego.  I have killed thousands of bad 
guys.  I have squished some cops in Grand Theft Auto.  I can hold my 
own in DDR and load a UMD on a PSP.  And I have played tennis with 
Mario, skated with Tony Hawk, and golfed with Tiger Woods.  I filled 
hot tubs with Sims, and helped Joan of Arc conquer the Mongols all 
in a weekend.  
This is a powerful form of media.  At the Mediatech Foundation where 
I test software, I witnessed two high school boys stay awake for 36 
hours trying to fly an airplane, the Spirit of St. Louis, across the 
Atlantic in an attempt to repeat Charles Lindbergh's famous flight 
to Paris in real time.  It was fascinating.  They used the Microsoft 
flight simulator using GPS and real weather conditions.  But unlike 
Lindbergh, they crashed four times.  
Recently I flew a Harrier jet using the new TS-3 controller, and I 
conducted an orchestra with the Nintendo remote.  
The first point to take away from my testimony is that improving 
technology driven by Moore's law is going to make the next 5 years 
very interesting.  We need to protect our children, but from what?  
There is little consensus on the short or long-term effects of 
violent games on human development.  Most would agree, however, 
that normally developing children, which is a different population 
than Mr. Terry worked with, can distinguish between fantasy and 
reality.  Most parents are taking their cues directly from 
children.  That is why you go buy a "Teen"-rated Star Wars game for 
a third-grader who loves Star Wars.  

There are less obvious things to protect children from, in my opinion, 
including ethnic and gender stereotyping, commercialism, being left 
alone for hours, and unsupervised use of the Internet.  And what 
about plain old old-fashioned low quality, which is certainly less 
newsworthy than "Hot Coffee."  
I have also wondered why the software publishing business seems to 
be authorless, hence blameless, unlike books or movies where an 
author like Rowling or director's game name is prominently 
displayed.  There should be a way to see who is behind the games.  
I would like to know the guy that put that add-on to that game so 
I can know what he stands for.  The logic is you would be less 
likely to put racy content in a game if your mother knew it was you 
who put it in.  
It is important in this hearing not to confuse linear versus 
nonlinear media.  I see it all the time.  Unlike books and movies 
where you can see the beginning through the end, interactive media 
which we are talking about here today is slippery and 
three-dimensional.  We need a ratings system that is smart on these 
issues.  
The current ESRB system lets people who know their content the best, 
the publishers, take responsibility for disclosing what is in their 
product and pay the price if they do not.  In my opinion, there is 
no better way to do this.  
Over the next few years we are going to see many more interactive 
options seep into the lives of our children.  It will be increasingly 
harder to define a video game versus software versus TV toy versus 
mobile phone, and any future ratings system will have to deal with 
this.  
Let me talk specifically about the ESRB.  We and the parenting 
magazines we work with have come to count on the ESRB to reliably 
tell us if a title is appropriate for a certain age range, and if 
the type of content may be inappropriate.  If they were not accurate, 
we would hear about it in seconds after the papers hit the deadline. 
 But the way the ratings are interpreted is less solid.  Some parents 
and retailers do not seem to mind "M"-rated games, and they probably 
should, and the descriptors tend to be overlooked.  
In my testimony I have pictures that I just took yesterday of the KB 
Toys Web site of "Mature"-rated games right next to Curious George.  
That is not right, and this is a toy store where kids go.  
Why shouldn't a toy store sell Bud Light and cigarettes as well and 
other "M"-rated products?  
Finally, there is a new kind of digital divide to think about.  
Participation in the video game culture is expensive.  These games 
cost $50.  What about the families who are not participating in this 
culture?  It is a whole new conversation.  
In conclusion, trustworthy consumer information such as that provided 
by the current ESRB ratings system is a foundation for the development 
of an interactive publishing business and for higher-quality use by 
families.  We need accurate labels.  The biggest challenge we face 
is to help parents, grandparents, and teachers use existing 
descriptors and to continue to study the effects of interactive 
media in light of the next generation of connected consoles and 
HDTVs.  As researchers we need to raise the level of dialogue by 
citing references and trying the games ourselves firsthand, 
observing real kids, and grounding our opinions in firm data.  It 
is safe to say there has never been a better time to pick up a 
controller and play along with a child.  Thank you. 
MR. STEARNS.  Thank you. 
[The prepared statement of Dr. Warren Buckleitner follows:] 

PREPARED STATEMENT OF DR. WARREN BUCKLEITNER, PH.D., EDITOR, 
CHILDREN'S TECHNOLOGY REVIEW 

It is an honor to testify today. I appear before you as a software 
reviewer, library trustee, former teacher, and parent of two 
daughters, ages 11 and 14. 
I guess the reason I've ended up here today is because I've played a 
lot of games (about 7,308 as of yesterday) as editor of a software 
review publication. I started reviewing software in 1984 on an Apple 
II, traveling the Oregon Trail, hunting Carmen Sandiego and coloring 
with KidPix.  I've killed thousands of bad guys, squished some cops 
in Grand Theft Auto, and punched myself silly in Mortal Kombat. I 
can hold my own in DDR, load a UMD on a PSP; but I still can't beat 
my youngest daughter in Hot Wheels Turbo Racing. I've played tennis 
with the Mario Bros., skated with Tony Hawk and golfed with Tiger 
Woods. I've filled hot tubs with Sims and helped Joan of Arc conquer 
the Mongols, all in a single weekend. 
At the Mediatech Foundation, where I test software, I witnessed two 
high school students stay awake for 36 hours trying to fly The Spirit 
of St. Louis across the Atlantic, in a failed attempt to repeat 
Charles Lindbergh's flight to Paris with Microsoft Flight Simulator, 
using real time weather conditions and modern GPS. Lately I've seen 
children competing against one other using an innovative wireless 
networking title, called Brain Games, on math facts.  Recently, I 
flew a Harrier jet, using the new PS3 controller, which uses the 
position and motion of your hands to control the aircraft; and I 
conducted an orchestra using the Nintendo Wii remote. The first point 
to take from this testimony-improving technology, driven by Moore's 
Law, will make the next five years very interesting. 

What  have I learned, and what does it mean for US families? 
We need to protect our children-but from what? There is little 
consensus on the short or long-term effects of violent games on human 
development. Most would agree, however, that normally developing 
children can distinguish between fantasy and reality. I certainly 
do. Most parents are taking their cues directly from their individual 
children, and perhaps that is why they have no problems buying a T 
rated Star Wars game for their third grader. This is not known issue. 
 There may be less obvious things to protect children from, 
including ethnic and gender stereotyping, hidden commercialism, being 
left alone for hours and unsupervised use of the Internet. And what 
about plain, old-fashioned "low quality," which is certainly less 
newsworthy than "hot coffee." Some games are just poorly designed; a 
waste of family resources and precious childhood time. Others load 
your computer with commercial links that can slow a computer to a 
crawl. There's a growing category of web-based content for sale, 
such as services for SAT test prep, where you can find typos on the 
sample tests. 
 Software publishing seems to be authorless, and hence blameless, 
unlike books or movies, where the author and/or director's name is 
prominently displayed. There should be a way to see who is behind 
games. You'd be less likely to put racy content in a game, if you 
knew your mother or children could tell it was you that decided to 
put it in. 
It is important in this hearing to make the distinction between 
interactive and non-interactive (linear vs. non-linear) media. 
Unlike movies, where you can see the beginning through the end, 
or a book where you see how many pages you have, interactive media 
is three dimensional, fluid and dynamic. To this end, we need a 
rating system that can capture the complexity of millions of lines 
of code, or the inner working of an MMOG (Massively Multiplayer 
Online Game). The ESRB system lets the people who know their content 
the best-the publishers-take responsibility for disclosing what is 
in the product. There is no better way to do this. 
 With more platforms comes more consumer confusion. A single movie, 
such as Disney/Pixar Cars, will generate nine video games, which are 
different for each platform. These differences should be better 
defined for the consumer. 
 As hardware improves over time, more interactive options will seep 
into the lives of children. It will become increasingly harder to 
define a "video game" vs."software" vs. "TV toy" vs. "mobile phone" 
It helps to turn the question around and look at it through the eyes 
of a child, at all developmental levels. What quality interactive 
options does a child have to explore, at any given time?  Is there 
quality? Is there balance? 
 We have found the ESRB rating system to be both necessary and 
reliable. We, and the parenting magazines we work with, have come to 
count on the ESRB to tell us if a title is appropriate for a certain 
age range and if the type of content might be inappropriate. The 
validity of the ratings (or the way they are interpreted), however, 
is less solid. Some parents and retailers don't seem to mind M rated 
games when they probably should, and the descriptors tend to be 
overlooked. Mature-rated games are easy to find in toy stores. 

Why do toy stores mix M rated games with obvious children's content? 
Why are there no descriptors online? (Both screens, from 
www.kbtoys.com  captured on June 12, 2006) 

We have found the ESRB staff to be responsive to our questions. 
Video games are no longer just for kids. Increasingly, more titles 
will be designed for older audiences, and the ratings will reflect 
this. But it is important to remember (and less newsworthy) that 
85% of the current 11,937 games have no worrisome content, and many 
have positive educational outcomes. 
There's a new kind of digital divide to consider. Participation in 
the video game culture can be expensive. The best quality online 
activities cost $10 per month, and games cost $50 each. Kids without 
the money and access to expensive game systems are being left out. 
There are new faces to the digital divide. 

Trustworthy consumer information, such as that provided by the 
current ESRB rating system, is the foundation for the development 
of interactive publishing, and for higher quality use by families. 
The biggest challenge we face now is to help consumers use the 
existing descriptors, and to continue to study the effects of 
interactive media in light of the next generation of connected 
consoles and HDTVs. As researchers, we should raise the level of 
dialog by citing references and trying games ourselves first hand, 
observing real kids and grounding opinions with firm data. There 
has never been a better time to pick up a controller and to play 
along with a child. 

MR. STEARNS.  Dr. Walsh.  
MR. WALSH.  Thank you very much.  I am the founder of the National 
Institute on Media and the Family and proud that over the last 10 
years we have issued an annual video and computer game report card 
in which we have taken a snapshot of the industry as it affects 
children, and that has been our interest.  We are also the group that 
alerted the public to the "Hot Coffee" scenario last July 7 in our 
first ever national parent advisory.  
I would like to divide my 5 minutes into a couple of different
 sections.  One is I would like to amplify on Congressman Murphy's 
comments about the impact of these games on children.  Congressman 
Murphy made some very, very important points, and I would only like 
to add to them by mentioning that the new research about the 
developing brain adds a new level of importance in terms of 
understanding the impact of these games.  
I would like to mention three things.  One is that one of the basic 
principles that we now know about children's brain development is 
that very simple principle of the brain cells that fire together 
wire together.  The more they fire together, the stronger the 
connection becomes.  
Secondly, while experience is key in determining how a child's brain 
gets wired, not all experiences are equal.  Some experiences have a 
greater impact than others.  And those that have the greatest impact 
are those that happen during a brain's growth spurts.  
The third point I would like to make is that we thought up until 
very recently that the brains' growth spurts were finished by the 
age of 10.  That turns out to be not true.  We now know through the 
recent research that the teenage brain is not the finished product 
that we thought it was from a physical point of view.  It is a work 
in progress, a series of major construction zones.  And as we 
understand what those construction zones are, that helps us 
understand why they act the way they do.  
Two of the major construction zones in the teenage brain have to do 
with impulse control, and the other is what I call the acceleration 
center of the brain, and both of those are undergoing major change.  
So when we think about kids and teenagers playing these games, we 
need to understand that in addition to everything Congressman Murphy 
said, the new brain research shows that these games do indeed have a 
very, very big impact on kids. 
The second category of comments that I would like to make has to do 
with where the technology is going.  Over the 10 years we have issued 
the video and computer game report card, we have seen tremendous 
change in terms of the power of the technology.  We are headed very 
quickly toward virtual reality.  That is the stated goal of the 
industry.  When we think of the benefits of that technology, it can 
be exciting.  When we think of the potential harm, it is scary. 
Another development that has been mentioned by different 
Congresspeople in their opening comments has to do with, I think, 
the emergence of sexual content.  Last week for the first time ever 
there was a meeting between video game developers and the 
pornography  industry.  One of the people in that meeting made the 
statement, "Don't tell me I have to abide by this little Disneyesque 
palette.  I may never even use the hard core end of my palate in any 
game that I make, but don't tell me that I can't."  
So I think increasingly we are going to see games similar to the one 
that is coming out next month called Naughty America, which is 
literally a game that features virtual sex.  
The other thing that is going to be more and more true in the future 
is that games are going to be more of an on-line environment, which 
is going to make the challenge even more difficult because right now 
most gamers have to walk into a Wal-Mart or a Target or a Best Buy to 
buy the game.  Increasingly they will be downloaded off the Internet, 
which makes everything that we talk about today even more important.  
There are a number of recommendations I have made in my written 
comments.  I will not repeat all of them, but I would like to just 
highlight a couple.  I think one of the things that would be helpful 
to parents as they exercise their responsibility is to have one 
universal ratings system for all forms of media.  The present 
alphabet soup is just confusing.  I think it is important for the 
industry to stop giving double messages to parents.  On the one 
hand, the industry and the ESRB tell parents to pay attention to the 
ratings.  On the other hand, they consistently deny the research that 
 shows that these games do have an impact on children.  I think we 
need to be clear about why it is important to pay attention to the 
ratings.  
In sum, I would like to suggest a comparison, that video games in a 
sense are like medicine.  We all know there are medicines that are 
very, very helpful for children, and there are also medicines that 
are toxic.  And so part of what we do with medicines is we label 
them, and we talk about the impact, we talk about the effects, we 
talk about the side effects, and those are clearly labeled so people 
can make decisions.  
With regard to medicines, there are two important parts.  One is 
dosage, how much; the other is what the medicine is.  I think 
increasingly we have to look at both.  Dosage has to do with what 
is emerging as video game addiction for some kids, and the content, 
of course, is what we are focusing on in this meeting.  
The National Institute on Media and the Family, in conjunction with 
Iowa State University, is in the process of convening is a national 
summit in October of the leading child advocacy groups and experts 
in the country to take a look at video games.  We will be happy to 
submit a set of recommendations from that meeting when we are 
concluded.  Thank you very much. 
[The prepared statement of Dr. David Walsh follows:]


PREPARED STATEMENT OF DR. DAVID WALSH, PH.D., PRESIDENT, NATIONAL 
INSTITUTE ON MEDIA AND THE FAMILY 

Video games have become a favorite activity for American children and 
youth. 96% of boys and 78% of girls play video games on a regular basis 
with girls playing an average of five hours per week and boys thirteen. 
1 While the majority of games produced are appropriate for young 
players, a growing number of titles feature extreme violence and gore 
as well as sexual content. While they represent only a fraction of 
games on the market these ultra-violent games are particularly 
popular with pre-teen and teenage boys. 78% of boys report that 
M-rated games are among their top five favorites and 40% name an 
M-rated game as their favorite. 77% of boys under seventeen own an 
M-rated game.2 
Over the past ten years the National Institute on Media and the 
Family has tracked and monitored the growth of the video game 
industry. Last fall we released our tenth Video and Computer Game 
Report Card as well as a ten year retrospective on the industry. It 
is clear that the games have become more violent, more sexually 
explicit and more profane. Ratings creep and the reluctance of the 
industry sponsored ESRB to use the AO rating (Adults Only) mean that 
these games are available to more and more children and youth.	
A growing body of research shows that games influence young players. 
While the industry touts the studies that show the positive effects, 
they discredit those that demonstrate any harm. The psychological 
and behavioral studies show that violent video games increase real 
world aggression in kids.3 The newest frontier in research is brain 
based and point to a number of important factors related to the 
impact of video game violence on youth. 
1. Experiences that happen during a young brain's growth spurts have 
a greater impact than at any other time. 
2. Contrary to earlier beliefs, the teenage brain is still under 
construction with the growth spurts involving impulse control, anger 
management, and the control of sexual urges undergoing major 
development. 4 
3. The discovery of "mirror cells" explains why young players are 
likely to imitate the behaviors they rehearse on the screens. 5 
4. Brain research shows that the circuits related to aggression 
activate while playing violent video games while those responsible 
for impulse control de-activate.6 

The combination of psychological and brain based research provide a 
growing rationale for the need to prevent young gamers from playing 
very violent and sexually explicit games. The urgency grows because 
of the following factors. 
1. Game technology continues to advance making the games more 
realistic and engaging. The goal of the industry is virtual reality. 
2. Some game producers seem intent on pushing the boundaries of 
violence. Take Two Entertainment has the games Bully and Grand Theft 
Auto 4 in the production pipeline. 
3. Sexual content will increase. The game Naughty America, a sex 
simulation game, will be released this summer. Last week video game 
producers met with leaders from the sex entertainment industry. 
A veteran game designer was quoted as saying, "Don't tell me I have 
to abide by this little Disney-esque palette. I may never even use 
the hard-core end of the palette in any game I make. But don't tell 
me I can't do that." 
4. The future of games is in the on-line environment making it more 
difficult to control sale and access. 

Therefore, it is more urgent than ever to inform and educate parents 
to become MediaWise(r).  Education is going to be more effective 
than legislation prohibiting the sale of games for two reasons: 
* All legislative efforts have been invalidated by the judicial 
system as violations of first amendment rights. The exception to 
this may be the sexually explicit games which may be covered under 
laws prohibiting the sale of sexually explicit material to minors. 
* As game sales migrate to an on-line environment access will be 
easier and retail sales will be less important. 

Therefore I would recommend that policy leaders support efforts to 
educate parents. The following steps would be useful. 
1. Develop a universal rating system for all visual media. The 
current alphabet soup of ratings is confusing to parents and is the 
reason that so many parents still do know understand the ESRB 
ratings. 
2. Instruct the industry to be clearer about the potential harm for 
youth. Currently the industry sends a double message. On the one 
hand, they tell parents to pay attention to ratings and at the same 
time they deny that games can have any harmful effects. The tobacco 
industry, for example, has to label their products as potentially 
harmful to users. 
3. Instruct the game industry and retailers to accelerate their 
efforts to keep M-rated games out of the hands of minors. 
4. Instruct on-line game producers and distributors to have effective 
age verification policies. 
5. The current distinction between M-rated and AO-rated (adults only) 
games is confusing and almost meaningless since so few games ever 
receive the AO rating. This should be revised. 
6. Independent validity and reliability evaluations of the ESRB 
rating system should be done and reported to policy makers. 
7. Support the promotion and distribution of independent ratings. 
8. Support public education efforts to educate parents, youth 
professionals, communities and organizations serving youth.  
Programs like our MediaWise(r) program strive to do exactly that. Our 
 website at mediawise.org provides independent ratings, research 
findings, information, and education resources for parents. 

MR. STEARNS.  Staff told me that you might be showing a video.  Did 
you want to show a video?  
MR. WALSH.  No.  I just restricted my comments. 
MR. STEARNS.  I appreciate that all of you would like to have more 
than 5 minutes, but as you can see, we are all confined here as 
Members, we have to go vote and so forth, so we would like to keep 
things going. 
I will start with the questioning.  Mr. Severson, I went to the 
Wal-Mart Web site where you sell Grand Theft Auto, and it is rated 
"M" on the Web site.  And so from there I read what the "M" rating 
said.  It says, "this game contains intense violence, blood and 
gore, sexual contents and/or strong language.  You must be 17 years 
or older to purchase this item.  This product is intended for mature 
audiences only.  By ordering this item you are certifying that you 
are 17 years of age.  If you agree to the above terms 
click 'I agree'."  So if you click "I agree," you can get this 
pretty easily. 
Mr. Lowenstein, what we are talking about here is not just singling 
out Grand Theft Auto.  We are talking, as Mr. Walsh just said, about 
a grander problem here in which children can get access to Grand 
Theft Auto, or even people that get this game do not realize that 
once they get it, as I understand the manufacturer of this game, 
Rockstar Games, put in two codes, one dealing with explicit sex, 
and another, I guess, with explicit violence that is not part of 
the game.  
And it turns out that somebody in Holland put on the Internet, 
Mr. Severson, a way so that a child can get that connection so that 
he or she can go into Grand Theft Auto and, by gosh, can get into 
this whole scene, and Mr. and Mrs. America have no idea about it, 
and yet it is easy to go to your Web site.  And you might stop 
selling the game, but today I can go on your Web site and get this, 
and I can get anybody to agree, and, bingo, they got the game, and 
then they go to the other to get this.  
So we are not singling out, Mr. Lowenstein, like you talked about 
the idea that one movie would make a barrel of apples bad.  This 
is more talking about how you control so that the parent has control 
of what the child sees.  
Ms. Vance, how many games a year are there brand new?  
MS. VANCE.  How many games?  
MR. STEARNS.  How many video games are there every year?  We were 
told there might be as many as 12,000 total games you rate.  
MS. VANCE.  We rate over 1,100 games a year.  Over the course of the 
time since 1994, I think we have rated something in the vicinity of 
12,000.  
MR. STEARNS.  So over the timeframe.  Now, how many of those games 
have you actually played?  
MS. VANCE.  How many have I personally played, or does our-- 
MR. STEARNS.  Let me ask you this:  How big is your board?  
MS. VANCE.  Our rater pool is about 35 members at the given time.  
Those are the people that actually assign the ratings.  
MR. STEARNS.  You are the one person on this board, and then you 
subcontract out to raters to do this?  
MS. VANCE.  We have a pool of part-time raters who come in. 
MR. STEARNS.  So there are really not 12 members on this board.  
You are the one person on the board; is that correct?  
MS. VANCE.  No, no, no.  I am president of the organization.  We 
report to, as any self-regulatory body, we have a board of directors 
composed of publishers of games, so it is a self-regulatory 
environment, and I report to that board.  
MR. STEARNS.  But I understand from staff there is really no board 
per se.  This perception that there is a board like a board of 
directors at General Electric, you do not really have a board.  
MS. VANCE.  We do have a board of directors, absolutely, that is 
made up of the game publishers.  
MR. STEARNS.  There is not really a board that sits down and says, 
okay, as Dr. Thompson says, we are going to play these games out 
ourselves to determine the content and the advisability. 
MS. VANCE.  No.  As my testimony indicated, we rely on publishers to 
fully disclose to us.  Our raters-- 
MR. STEARNS.  Who are these publishers?  
MS. VANCE.  The game publishers.  
MR. STEARNS.  Do you think they would have a conflict of interest in 
rating their own thing?  
MS. VANCE.  They do not rate the games.  They submit the content to 
us.  We have a pool of independent raters who are all adults.  They 
have no ties to the industry whatsoever.  They come in for about 2 
to 3 hours every other week.  
MR. STEARNS.  Let me ask you this question.  I'm sorry for 
interrupting.  Of the 12,000 games, how many were rated "Adult" out 
of those 12,000 games, 20?  I was told maybe only 20. 
MS. VANCE.  That is how many stuck.  What happens if we assign an 
"AO" rating, which is far more than the 20, what will happen is 
because of the limited distribution that that product-- 
MR. STEARNS.  But historically you have only rated--out of the 
12,000 games, only 20 have been rated-- 
MS. VANCE.  That is not true.  We have assigned an "AO" rating more 
than 20 times.  The problem is-- 
MR. STEARNS.  Twenty-two?  How many?  
MS. VANCE.  I do not know the exact number, but I can tell you it 
is significantly more than 20.  
MR. STEARNS.  Is it under 100?  
MS. VANCE.  Yes, it is under 100. 
MR. STEARNS.  Under 50?  
MS. VANCE.  It is under 100.  But the point being that companies have 
the option of making changes to the product and resubmitting it to 
get a different rating, because I said in my testimony, the Council 
of Manufacturers will not publish "AO" games on their platforms, 
which limits the market, and many of the retailers, including 
Wal-Mart, will not carry "AO" games.  So companies do have the 
option of changing the product if they get an "AO" rating assignment 
project. 
MR. STEARNS.  Dr. Thompson, you made some great recommendations about 
asking the board to play each game, and I do not have a feeling that 
they played each game.  Your other recommendation is transparency 
in the criteria for assigning this.  I do not see that.  And your 
last thing is that you want to have a real peer review involved.  
We talk about a company that says, we are making $100 million a year, 
then you have an outside auditor come in and tell you if you are 
doing that, but there is nobody that is doing this.  
So those three are very powerful, and Congressman Murphy made a 
great point.  I just do not agree when you say these children are 
not impacted at all by this violence where 61 people are killed an 
hour or 1 a minute.  That has got to have an impact, and I think 
what is so disturbing is I could go to the Wal-Mart site today, and 
I could get this Grand Theft Auto, and there are going to be four 
versions of it.  I can get all four, and I can then go to this other 
site and get this, when this occurred that you could get this site 
to go in and get this hugely explicit sex scene, and the poor 
parents would not even know.  So I think what we do have here is 
more of a trying to understand it, as Dr. Thompson has outlined.  
With that, my time has expired.  
Ms. Schakowsky.  
MS. SCHAKOWSKY.  Thank you, Mr. Chairman.  I thank all the witnesses.  
I want to ask Ms. Parnes, were any of the stores that were checked 
by your mystery shoppers Wal-Marts?  
MS. PARNES.  We did; yes, we did.  
MS. SCHAKOWSKY.  Did you break out the results by retail?  
MS. PARNES.  I cannot break it out.  I do not believe that we are 
able to break it out by specific retailer, but I think we can by 
large store and smaller. 
MS. SCHAKOWSKY.  Can you tell me that?  
MS. PARNES.  The national stores asked the child's age in 55 percent 
of the instances.  The local and regional in 35 percent of the 
instances.  And basically that is what we found across the board, 
that national retailers-- 
MS. SCHAKOWSKY.  Did better?  
MS. PARNES.  Did better than local and regional.  They posted 
information about ratings about half the time, while local and 
regional outlets did it less than a quarter of the time.  
MS. SCHAKOWSKY.  Thank you.  
Mr. Severson, do you think that clicking an I agree box is enough to 
ensure that teens or younger are not buying "M"-rated games without 
their parents' consent?  
MR. SEVERSON.  That is a limitation of the Internet, and the vast 
majority of children under 17 do not have a credit card or would 
need a credit card from their parents, which would imply consent on 
that.  But I think that is something we need to look at to see what 
is available to help improve that.  
MS. SCHAKOWSKY.  I am wondering if you truly "make every effort to 
be a responsible retailer and take the role very seriously."  Have 
you considered stopping selling "M"-rated games on line?  
MR. SEVERSON.  Currently we continue to sell those, and we continue 
to try and be responsible and sell those to adults and make sure 
that that is the case, because these are adult games that are 
marketed to adults, and we want to sell them to adults.  
MS. SCHAKOWSKY.  But Wal-Mart did make a decision that it was not 
okay to sell music with sexually explicit lyrics, but it is okay to 
sell explicitly violent video games, explicit and violent.  
MR. SEVERSON.  That is a current music policy that we have in our 
store.  And the current music and video game policy that we have in 
our store is that we will not sell those videos games to minors.  
MS. SCHAKOWSKY.  I understand, but you have stopped selling music.  
MR. SEVERSON.  No, we never started selling.  
MS. SCHAKOWSKY.  You do not sell, fine.  
Is somehow violence on these games and sexual violence more family 
friendly than sexually explicit lyrics?  
MR. SEVERSON.  No, but we just sell those to adults. 
MS. SCHAKOWSKY.  No, you do not just sell them to adults.  Your 
stores were still among those where only 45 percent you asked 
whether or not--and teens can, in fact, just click on a box.  
MR. SEVERSON.  I cannot speak to the individual store results of the 
survey, and I am not suggesting that the policy is perfect. 
MS. SCHAKOWSKY.  It is far less than perfect; would you not agree 
with that?  
MR. SEVERSON.  I think there is room for improvement on that, I 
agree. 
MS. SCHAKOWSKY.  That is not an I think, that is a fact.  
MR. SEVERSON.  Yes, I think that in our stores we perform better 
than the average that is being put out there. 
MS. SCHAKOWSKY.  Do you have evidence of that?  I would be interested 
in it if you do.  
MR. SEVERSON.  I do not have data that proves that.  
MS. SCHAKOWSKY.  Mr. Buckleitner, you said in your statement--and I 
looked at the pictures that KB Toys sells "M"-rated games on line, 
and the toys in that picture are right next to each other.  Do you 
think this is something that the Entertainment Software Association 
should condone, and have you found other toy stores that are 
selling "M"-rated games?  
DR. BUCKLEITNER.  I have.  I do not have as much problem with Wal-Mart 
selling these because they sell ammo.   
MS. SCHAKOWSKY.  They sell a lot of that stuff, so that is okay.  
DR. BUCKLEITNER.  I am just telling you it is not a place for children 
specifically.  
MS. SCHAKOWSKY.  I hear you.  Toy stores.  
DR. BUCKLEITNER.  They sell a lot of things that you would not want 
your kid to deal with.  I think if you look at the book rack, it is 
the same thing.  You will see books you do not want your kids reading. 
MS. SCHAKOWSKY.  In toy stores?  
DR. BUCKLEITNER.  In toy stores there is this confusion, specifically 
like Toys R Us and KB Toys, where you are seeing "M"-rated games, and 
to me this is a complete mismatch.  It doesn't belong.  
MS. SCHAKOWSKY.  Ms. Vance, this issue of the methodology, that 
Dr. Thompson's methodology is flawed, what is wrong with it?  
MS. VANCE.  Well, we have several issues with her methodology.  
One primary issue is that she uses very different criteria than we 
have used in assigning content descriptors.  Our criteria is very 
plain and public, which is our raters are instructed to assign 
content descriptors based on what they think triggers a particular 
rating or what they think in the context of that rating category 
parents are going to be most interested in.  
MS. SCHAKOWSKY.  I am running out of time.  What I wanted to ask is 
if you would provide for our committee a detailed report on what 
about her methodology is scientifically questionable.  
MS. VANCE.  Well actually, attached to my written testimony is an 
appendix that does address many of the issues we have with her 
study. 
MS. SCHAKOWSKY.  We will look at that and see if that meets the 
question that I really wanted to see.  Okay.  Thank you very much.  
MR. STEARNS.  Thank you.  
Mrs. Blackburn.  
MRS. BLACKBURN.  I thank the Chairman for the time.  
Dr. Thompson, you mention game publishers.  How many game publishers 
do we have in the country; do you know?  
DR. THOMPSON.  I do not know exactly.  There are large publishers, 
and then there are also some smaller publishers.  I think that is a 
question really for Mr. Lowenstein.  He would be the person who 
would know that.  
MRS. BLACKBURN.  Mr. Lowenstein, do you know the total number of 
publishers?  
MR. LOWENSTEIN.  I do not know the total number, but I would say 
there are approximately 25 to 30 publishers of which probably 10 or 
so are responsible for probably 70 or 80 percent of all the sales. 
MRS. BLACKBURN.  Are those domestic or global companies, or do you 
know?  
MR. LOWENSTEIN.  Both.  
MRS. BLACKBURN.  Dr. Thompson, back to you again.  Do you think that 
ESRB is objective or subjective in these ratings?  
DR. THOMPSON.  Well, I think that what the ESRB does is it hands to 
raters a package of material which we do not know how they then come 
up with their ratings.  So that is subjective. 
MRS. BLACKBURN.  So they subjectively select the material that they 
give to the raters. 
DR. THOMPSON.  And the raters subjectively review it. 
MRS. BLACKBURN.  Ms. Vance, let me come to you for just a moment.  
Let us see.  Are you a for-profit or not-for-profit entity?  How are 
you structured? 
MS. VANCE.  Not for profit.  
MRS. BLACKBURN.  You are structured as a not-for-profit.  So that 
means you would have members of your board or your association, and 
some of these publishing companies would be members of your board; 
is that correct.  
MS. VANCE.  Members of our board are members of the publishing 
community, yes.  
MRS. BLACKBURN.  How many members of your board do you have?  
MS. VANCE.  Approximately 15. 
MRS. BLACKBURN.  Fifteen members of your board who are game 
publishers. 
MS. VANCE.  That is correct. 
MRS. BLACKBURN.  U.S. companies or foreign companies?  
MS. VANCE.  They are U.S. companies, but some of them are global 
companies, but it is the U.S. operation.  
MRS. BLACKBURN.  So U.S. companies that are members of your board, 
and you are a not-for-profit entity.  
MS. VANCE.  We are. 
MRS. BLACKBURN.  So then how do you receive your operating funds?  
Do people pay for a rating?  
MS. VANCE.  They do just like in the film industry.  Companies who 
want their films-- 
MRS. BLACKBURN.  So they are paying you for a rating of their 
product, and they are choosing what they give to you to rate that 
game by.  Am I saying this correct?  
MS. VANCE.  That is correct. 
MRS. BLACKBURN.  And you do not see a problem with this?  
MS. VANCE.  If they do not disclose product to us, there are serious 
consequences for doing so.  
MRS. BLACKBURN.  How many times have you brought somebody before the 
board for inappropriate actions or for nondisclosure? 
MS. VANCE.  We have an enforcement system that runs through -- 
MRS. BLACKBURN.  How many times have you brought somebody before the 
board?  
MS. VANCE.  We issue numerous enforcement-- 
MRS. BLACKBURN.  How many times -- 
MS. VANCE.  I don't know the number.  I would suspect it is over 100 
on an annual basis. 
MRS. BLACKBURN.  That is fine.  
Do you rate freeware that independent designers produce and freely 
distribute on the Internet?  
MS. VANCE.  Typically not.  
MRS. BLACKBURN.  Do you see a need to rate things that are going to 
go on the Internet, considering Dr. Walsh's comments about more of 
this is going to be an on-line process?  
MS. VANCE.  We would love to get submissions from anybody who wants 
their product to be rated.  As long as it is a game, we will rate 
it.  
MRS. BLACKBURN.  Do they have to be a member of your board to submit 
to you and get a rating? 
MS. VANCE.  Absolutely not. 
MRS. BLACKBURN.  What would you think about having one rating system 
for all electronic media or all video games or all movies? 
MS. VANCE.  I do not have a fundamental problem with the universal 
rating system.  I do not see anything fundamentally broken with 
ours.  There is fairly high awareness in use of the system that we 
have today.  I certainly would not want to water down our system.  
We have a very strong and detailed system, and I would want to keep 
it that way.  
MRS. BLACKBURN.  All righty.  And your board was created in 1994 by 
who?  
MS. VANCE.  By the Entertainment Software Association, by the 
industry.  It is a self-regulatory body. 
MRS. BLACKBURN.  All righty.  And what would be your opinion of a 
law requiring age verification for sexually explicit video games?  
MS. VANCE.  We do not have a position on laws about regulating the 
video game industry.  We do support retailer policies, and we 
encourage retailers to post signage about those policies. 
MRS. BLACKBURN.  Do you have an idea of what the total revenue 
generated by the "Adult-Only" video game industry is every year?  
MS. VANCE.  I do not. 
MRS. BLACKBURN.  You do not.  Thank you for your time.  
I yield back, Mr. Chairman.  
MR. STEARNS.  Thank you very much.  
Mr. Pitts.  
MR. PITTS.  Mr. Severson, I understand you have to go.  I would like 
to ask you a couple of questions.  I am glad Wal-Mart has a policy 
to make sure kids cannot buy "M"-rated games like Grand Theft Auto, 
but even if you have a perfect system for making sure you only sell 
games like this to adults, why would you want to sell them at all?  
MR. SEVERSON.  The nature of our business is that in a lot of 
different products that we sell, there is someone who is against 
that.  We sell Bibles in our stores, and there are people who are 
against that.  
MR. PITTS.  Why would you want to sell a game that makes a sport of 
dealing drugs or killing police officers with chainsaws or flying 
passenger jets into skyscrapers?  Why would you not have a policy 
that you will not sell any video that role plays cop killing or 
terrorism or torture or drug dealing or prostitution or murder?  
MR. SEVERSON.  Those are difficult questions, and I do not 
personally condone all of the things that happen on this-- 
MR. PITTS.  Well, who in your company does?  
MR. SEVERSON.  We try to purchase products that our customers want 
to purchase.  That is what we do as a business.  There are a number 
of game players that are adults who choose to want to play different 
games, and we want to be able to sell those to the adults that want 
to play them.  
I am a father of six children, four who are teenagers, and 
personally my children do not play those games, and as a parent I 
enforce that.  We try to have the same information to parents in our 
stores to allow them to make those decisions and have that 
enforcement at the cash registers to prevent the children from doing 
that as well.  
MR. PITTS.  Thank you.  
Mr. Lowenstein, a couple of questions.  What is the industry doing 
to protect the children?  I mentioned parents who do not monitor 
what the kids are playing.  
MR. LOWENSTEIN.  Congressman, I wish it was in our power to protect 
all the children by coming up with ways to mandate good parenting.  
There are a lot of social ills in this country that are beyond the 
capacity of our industry to solve.  Our focus has been on providing 
information for parents who are prepared to take responsibility.  
I fully understand that we live in a culture where parenting is 
difficult, where there are absentee parents and so forth, but at 
the end of the day, as an industry our capacity is to provide 
information and tools and let people know about the information 
and the tools.  We have endeavored to do so.  We will continue to 
try to enrich that and strengthen that system. 
MR. PITTS.  But you do not feel you have a responsibility towards 
at-risk children?  There are lots of at-risk children in society.  
MR. LOWENSTEIN.  There certainly are a lot of at-risk children for 
a lot of things, and, again, if I knew as an industry how we could 
uniquely help those children, I would certainly look into it.  But 
if those parents are not in the picture, I do not know what we 
can do.  
We support the retail enforcement.  We support education and 
empowerment.  I do not know how those kids are getting the games.  
The FTC has reported that 83 percent of the time the parents are 
involved in the purchase and rental of games.  So chances are if 
Grand Theft Auto is in the home, Mom and Dad bought it.  Now I do 
not know how we fix that problem as an industry other than 
continuing to focus on education and empowerment.  
MR. PITTS.  Well, one way you can do it is not contribute towards it 
by offering that kind of a video.  
MR. LOWENSTEIN.  Well, we are a mass-market entertainment industry, 
and as I said in my opening statement, we are no different from the 
book industry, the music industry, or the film industry.  There is 
a wide range of product, some of which I may not personally 
particularly care for, but it is protected speech, and it is not 
within my power at the end of the day to compel someone or restrict 
somebody from producing a constitutionally protected product whether 
I like it or not.  
MR. PITTS.  Thank you.  
Dr. Walsh, you mentioned the need for having one source of ratings 
for all media.  Would you expand on the need for that a little bit?  
MR. WALSH.  Most of our work is with parents.  Last year I gave over 
200 workshops and speeches to PTA groups, school groups, and 
educators across the country, and one of the things that parents 
often say, "why isn't there just one rating system?  Why do there 
have to be three?  It would be so much easier.  The alphabet soup 
is confusing."  
I think if the end user of the rating system is the parent, then I 
think we should be listening to what they want and not what the 
industry wants to do.  
MR. PITTS.  And the evidence that you have received from talking to 
parents is that there is some confusion in their minds as to all the 
different types of ratings systems?  
MR. WALSH.  Absolutely.  In spite of the market surveys that are 
done, we talk to parents, and if you ask parents what does the 
different rating system mean, most of them cannot give that answer.  
MR. LOWENSTEIN.  Congressman, can I just add one thing to that?  
MR. PITTS.  Yes, please.  
MR. LOWENSTEIN.  The Kaiser Foundation, which is not affiliated with 
this industry, one of the most respected research groups in the 
country, reported a year ago that when they asked parents whether 
they wanted universal ratings, an overwhelming majority said they 
didn't.  My personal view, by the way, is that I think it is a 
wonderful goal, and I personally would sit down with anybody to see 
how you could develop such a rating system because it is obvious 
that a single rating system makes everybody's life easier.  The devil 
is in the details.  
DR. THOMPSON.  I would like to volunteer to sit down with you and 
talk about that. 
MR. PITTS.  Dr. Thompson, with regard to the games based on movies, 
should the ratings correspond?  If they do not, does this add to 
confusion?  Would you expand on that?  
DR. THOMPSON.  In our studies we have observed a few examples of 
games and movies that have been cross-marketed.  This is also 
something the Federal Trade Commission reports have raised an issue 
on.  But, for example, we observed the Enter the Matrix video game, 
which was rated "Teen", was cross-marketed very heavily with the 
Matrix movies, which were rated R.  And in the other direction, the 
Chronicles of Riddick is another example.  
I think the key issue is that parents really need good information 
about what is in the media products that they are trying desperately 
to make sure they are consuming responsibly, and we need to make 
sure that they are getting good information, and that the 
information does not put them into a compromised position from the 
get-go.  
MR. PITTS.  Thank you, Mr. Chairman. 
MR. STEARNS.  Mr. Matheson, I will ask a few questions, and then I 
will let you have it.  
Mr. Lowenstein, what would it take to make an "Adult-Only" rating on 
Grand Theft Auto?  What more would you have to do besides--Mr. Pitts 
just mentioned all the things that the game does.  What, in your mind 
personally, would it take to tell Ms. Vance we need an "Adult Only"?  
This is a little bit asking you out of sort of your subjective, but 
how much more do you have to do?  
MR. LOWENSTEIN.  You are right.  It is a very subjective question, 
and that is part of the fundamental issue when it comes to any 
ratings system is ratings are by definition subjective.  We all 
bring our own values.  It is a pluralistic society and a pluralistic 
culture.  So what it takes for me is almost, with all due respect, 
irrelevant, because my standards may not be reflective of the rest 
of the user base.  Am I ducking the question?  I do not have an 
answer for you. 
MR. STEARNS.  I understand.  
Ms. Vance, what would you say?  Without the hidden programs that are 
coming with the explicit sex and violence, it is already killing 
emergency people who are trying to come help, it is killing cops, 
and it is killing civilians.  How much more would you need, in your 
mind, to make it an "Adult Only"?  
MS. VANCE.  Well, again, it is a subjective call.  No question about 
it, Grand Theft Auto is a very high--our definition of an "AO" game 
typically requires prolonged scenes of intense violence.  In other 
words, something like a torture scene and player control may add an 
element to torture that takes it into a different realm.  You could 
have obviously sexually explicit content that would take it into 
an "AO" category. 
MR. STEARNS.  How about taking a chainsaw to somebody?  That is in 
here.  That does not count?  
MS. VANCE.  It depends on how explicit it is, but that could 
qualify.  It depends on the depiction. 
MR. STEARNS.  In this case there is blood everywhere.  In the video 
we showed here from Grand Theft, it was pretty clear it was pretty 
explicit, but that would not make it.  
MS. VANCE.  I would ask you, you have seen plenty of R-rated movies 
before with plenty of pretty graphic content in that, and it is the 
difference between an R and an NC-17.  It is subjective. 
MR. STEARNS.  Dr. Thompson, for you.  Can you give a better 
definition of what would push Grand Theft Auto to "Adult Only", or 
is it something that we just cannot even come up with a definition 
in your mind?  
DR. THOMPSON.  We have not actually studied the small subset of "AO" 
games to figure out what are the typical characteristics of those 
games.  But the reality is that when we do study games within an 
individual age-based category, there is a wide range of variability 
with some games that are at the top, and we do find games that we 
would say might overlap in that gray space.  I think it is hard to 
say right now.  
MR. STEARNS.  Ms. Parnes, how is the Federal Trade Commission going 
to regulate hidden programs?  You buy X, Y, Z game, and it might be 
to a child under 17, and yet there are connections to the Internet 
for hidden programs that can get you into a whole new--how are you 
going to stop that?  What is your agency going to do?  
MS. PARNES.  I think that one thing is that case that we brought 
against Grand Theft Auto San Andreas.  We are sending a message to 
the industry that there is certain conduct -- 
MR. STEARNS.  But do you think an $11,000 fine is going to be 
sufficient? 
MS. PARNES.  Well, we can obtain an $11,000 fine per violation for 
an order violation.  And it could be $11,000 per day for the amount 
of time for the violation.  
MR. STEARNS.  Is that what it is today?  
MS. PARNES.  It is per violation.  And you can define it by per day, 
perhaps per sale.  
MR. STEARNS.  I see.  
What assurance do you have from Take Two and Rockstar Games that 
they will not include hidden content?  I mean, you can't do 
anything.  You just wait until it already occurs, and by the time 
it occurs, for example, we understand at Wal-Mart they sold over 5 
million copies of Grand Theft Auto before they stopped it.  I mean, 
aren't you behind the curve?  Is there anything that you can suggest 
that we do here?  
MS. PARNES.  Well, in some respects that is just a function of our 
law enforcement.  When we are enforcing orders, we think we are 
actually not behind the curve.  We think we are ahead of it in this 
case because we have laid down the marker for what they need to do.  
MR. STEARNS.  Are you investigating the Oblivion video game for 
violence?  Do you do any investigation at all pre, like this 
Oblivion video game?  Do you investigate that at all?  
MS. PARNES.  We can't comment on whether or not we are conducting 
an investigation.  That would be nonpublic information.  
MR. STEARNS.  But you are capable of investigating something before 
you hear about it.  
MS. PARNES.  Oh, absolutely.  Absolutely.  
MR. STEARNS.  Mr. Murphy.  
MR. MURPHY.  Thank you, Mr. Stearns.  
I have some questions for Ms. Vance.  Do you have children?  
MS. VANCE.  Yes, I do.  
MR. MURPHY.  How old are they?  
MS. VANCE.  Fourteen and twenty-one.  
MR. MURPHY.  I just want to make sure I understand this.  So a 
publisher of a game, they give a list of content.  That is how 
that information comes across?  
MS. VANCE.  They fill out a form, and they provide us with a 
videotape and a script and lyrics sheets usually.  
MR. MURPHY.  And then from that, that is handed over to what you 
called a group of people recruited out of New York City.  
MS. VANCE.  Well, it first gets scrubbed by our internal staff to 
make sure that everything is there and that the videotape 
encompasses everything in the written materials.  
MR. MURPHY.  But they are not actually playing the game.  So these 
are New Yorkers, they don't actually play the game, but it is a list 
of content.  
MS. VANCE.  They look at the videotape, is what the raters actually 
get.  
MR. MURPHY.  It is not actually playing the game, Correct?  
MS. VANCE.  They don't play the game.  
MR. MURPHY.  Thank you.  
So they rate the game without playing it based upon this system; 
that is, the SRB is not an independent board, but they are part of 
the game industry.  Is that correct?  
MS. VANCE.  That is correct.  
MR. MURPHY.  Then what I see here is you said that three out of four 
games purchased are purchased by adults, correct?  
MS. VANCE.  It is actually more than that.  It is more like 9 
out of 10.  
MR. MURPHY.  You said three out of four.  Okay. 
MS. VANCE.  Three out of four regularly use the ratings. 
MR. MURPHY.  You said 83 percent of adults paid attention to those 
ratings.  
MS. VANCE.  Eighty-three percent are aware, and 74 percent regularly 
use it either most of the time or all the time.  
MR. MURPHY.  So as I am trying to do some math here, so 75 percent 
of the time they may use it, but that 75 percent of the use, only 
83 percent are aware.  So it started with 83 percent, and 75 
percent of them are aware.  
MS. VANCE.  That is incorrect.  No; 75 percent regularly use it. 
MR. MURPHY.  We are down to 65 percent.  And then of the games 
that are in people's homes, parents-- 
MS. VANCE.  Seventy-five percent out of the whole base.  It is 
not 75 percent-- 
MR. MURPHY.  You said three out of four people are aware.  
MS. VANCE.  No; 83 percent are aware, and 74 percent regularly 
use it, which means most of the time or all the time.  
MR. MURPHY.  Fine.  Eighty-three percent are aware.  And out of 
those that are aware, 74 percent-- 
MS. VANCE.  It is not 74 percent out of 83.  
MR. MURPHY.  It is clearly not all.  Let me continue on here.  
Then out of that, not all parents watch those games.  So we have 
people who the publisher provides the content.  People out of New 
York are supposed to represent the rest of the Nation.  I love New 
Yorkers, but I don't think they represent the whole Nation.  They 
are basing their ratings on some rating scale that the industry 
has provided, paid for by the industry, not independent.  Not all 
parents are aware of it.  Of those parents who are aware, not all 
pay attention to it when they purchase the game.  And of those who 
paid attention and are aware and purchased it, not all of them 
watch the game.  And even if they do watch the game, not all of 
them see all the content, because sometimes there is hidden 
content.  And because no one has watched the whole video that has 
rated them and parents aren't sitting down for hours, they can't 
possibly know all the things in there.  
Now, let me ask you this.  Would you accept that sort of 
system--now, I am concerned as a psychologist and as a parent that 
there are effects here.  And I don't know if you agree that there 
are effects of video game repeated use with perhaps violent or 
sexually content games, but I am concerned that it has an effect on 
a child.  Now, let me ask you this.  Let us say 75 percent of the 
time, would you accept--maybe you call it a babysitter service to 
provide babysitting or a nanny for your kids.  Would you accept if 
they said that 75 percent we are correct on screening these people 
for whether or not they are pedophiles?  Would you accept that 
rating?  
MS. VANCE.  I am not clear what you are asking.  
MR. MURPHY.  I am asking you--you are setting the bar down pretty 
low, it seems to me, as a parent, to a pretty low number.  You are 
saying, I thought someone from Wal-Mart said that a pretty good 
number, 69 percent of the time, people adhere in their staff.  My 
point is-- 
MS. VANCE.  We can't force parents to use the system.  Is that what 
you are getting at?  
MR. MURPHY.  I am asking you this.  What is acceptable?  The system 
is the publishers provide you the information on some rating scale, 
summarized and reviewed by a number of people who may or may not see 
the game, providing a scoring system that is from the industry 
itself, and that parents themselves may or may not use this system.  
My point is that you start to chip away and whittle this down.  And 
yet, again, I believe that repetitive viewing, interactive, of 
violent and sexually explicit video games can have an impact upon 
children's behavior.  
MS. VANCE.  That is why they are rated "M" for "Mature" for 17 and 
older.  
MR. MURPHY.  But you say the parents may not see these.  And my point 
is--and I don't believe they have a direct causal effect on every 
child.  I mean, that clearly doesn't, just the same as not every 
person who smokes cigarettes automatically gets cancer.  But it does 
have an interactive effect based upon the child's temperament, 
personality, repetitive behaviors, things like that.  
What I am concerned about is I wish there was more alarm.  I wish 
there was more efforts.  I am pleased that there are going to be 
some ads or there are ads at stores, hey, pay attention, folks, 
that are increasing parents' awareness, because ultimately I am 
concerned about parent awareness.  I just don't think the industry 
is doing enough to let parents know.  
And as we are going down this, the reason I say those numbers is if 
you went through this same kind of rating, if the police said, this 
is how well we screen pedophiles and whether or not they are going to 
live next door to you, this is how well we screen babysitters of 
whether or not they can be left alone with your children, because 
since your child is left alone with this game for a long period of 
time, I don't think you would accept that.  
MS. VANCE.  Well, this is content that is finite, that it is not 
controlled in terms of what we rate, it is not controlled by other 
people.  It is finite content that we are asking the--
MR. MURPHY.  I don't understand what that means.  All I know is as a 
person who has spent my career working with children who have 
serious problems, and many of them aggressive or violent behavior, 
disturbed children, who, whether it is the game that attracts them 
or they are attracted to the game, there is an interactive effect.  
And I just don't believe the industry is using enough with this 
system.  I think there are recommendations that you would have 
people rate this who actually play the games, watch children in the 
games, and have a reliable, valid system of reviewing those.  I 
think that is very important.  And I would recommend industry pursue 
that as well, because as a parent and as a psychologist, I really 
don't find that this is an unbiased system.  And my concern is, is 
that your comments and criticisms of Dr. Thompson and Walsh and 
others about this, I think they have got some recommendations you 
ought to look at.  And rather than pooh-poohing it, I think you 
ought to look at it.  
But I want to ask this final question.  Do video games repetitively 
played with violent content affect the behavior of some children?  
MS. VANCE.  I think the research is inconclusive.  But I think the 
point is that parents need to be actively monitoring.  
MR. MURPHY.  I didn't ask about parents.  I asked about this.  And 
it seems to me-- 
MS. VANCE.  Is the material inappropriate, some of the violent and 
sexual material inappropriate?  Absolutely.  And that is why it is 
rated as such.  
MR. MURPHY.  Well, I don't agree.  
Thank you, Mr. Chairman.  
MR. STEARNS.  I thank the gentleman.  I thank you for your patience. 
 I think we had overall a balanced hearing, and I appreciate all of 
you.  We have had to reschedule a couple of times and so forth.  So 
I want to thank all of you for coming.  
By unanimous consent, I will put Mr. Matheson's opening statement as 
a part of record for him.  
[The prepared statement of the Hon. Jim Matheson follows:] 

THE PREPARED STATEMENT OF THE HON. JIM MATHESON, A REPRESENTATIVE IN 
CONGRESS FROM THE STATE OF UTAH 

Chairman Stearns, Ranking Member Schakowsky, thank you for allowing 
me to participate in today's hearing.  Most importantly, thank you 
for holding today's Subcommittee hearing on Explicit Video 
Games-it's an incredibly important topic. 
As a parent and a legislator, I really worry about what our kids can 
access without parental consent.  I believe that parents should be 
the first line of defense when it comes to children.  But, I 
recognize that parents can't be with their children at all times.  
I think there is a reasonable place for government and the industry 
to work together to help families.  
For my part, I've introduced legislation with my friend and 
colleague Rick Renzi of Arizona called the Video Game Ratings 
Enforcement Act.  I think that it presents a simple approach to 
ensuring that kids can no longer purchase adult-rated content.  It 
also keeps the government out of the business of assessing content 
by using the industry's own ratings system.  
Simply put, this bill would require all retailers to check 
identification for any children trying to buy or rent Mature-rated 
or Adults Only-rated games.  It also requires that ratings system 
explanations be posted in stores.  However, the Video Games Ratings 
Enforcement Act does not prevent a parent from buying any available 
game.  It only helps to ensure that children can only access age 
appropriate content with parental permission. 
This legislation presents a reasonable approach for retailers and 
manufacturers, because families deserve real ratings enforcement.  
Today, video games are by far the most popular activity for kids 
and most games are probably fine for anyone to play.  However, given 
that 190 million video game units were sold in 2005 here in the 
U.S. there's room for concern as to what kids can actually buy at 
the store. 
A 2004 Federal Trade Commission report found that 69% of 
unaccompanied 13-16 year-olds in the study were able to purchase "M" 
rated video games from retailers.  The National Institute on Media 
and the Family published its tenth annual MediaWise Video Game 
Report Card late last year and it included the results of a survey 
of more than 600 students ranging from 4th-12th grade, conducted in 
classrooms.  Almost half (45%) said they have bought M-rated games 
and 7 out of 10 children reported playing M-rated games.  
And let's not kid ourselves about some of the content in 
Mature-rated and Adults Only-rated games-high scores are often 
earned by players who commit "virtual" murder, assault and rape.  
Adults may be ok to choose what they want to play and what they want 
to buy, but it's not ok for 13 year olds to be prime consumers of 
adult-rated games, in my opinion.  
I worry about how many Mature-rated and Adults-Only rated games are 
being purchased by young children every single day in this country. 
 As lawmakers, I think almost all of us are very comfortable 
insisting that retailers verify the age of people who want to 
purchase alcohol or cigarettes because we've decided as a society 
that those products are only appropriate for adults.  I know that 
as a parent, I'm glad that retailers help me by performing this 
service.  I don't doubt that at one point in time, retailers weren't 
thrilled about point of sale restrictions for alcohol or tobacco but 
I'm willing to bet that almost every retailer would now say that 
it's a valuable service. 
In the case of video games, the industry that makes these immensely 
popular video games has acknowledged on its own that some games-many 
of which are best sellers-are really only for adults.  So why is it 
unreasonable for Congress to insist that retailers only sell these 
games to adults? 
If a parent chooses to purchase a game for their child and they are 
fine with the content, then that of course is their right as a 
parent.  Marketers and game manufacturers do not have the right to 
sell to kids just because kids are willing to buy the products.  
Kids aren't expected to know what is right for them in the long 
run-that's where parents come in and that's where I think Congress 
should be-on the side of parents trying to make sure that important 
choices are made at home, not at the store. 
I acknowledge that some retailers are already trying to do the right 
thing and I commend those companies for proactively looking out for 
American families.  I welcome the opportunity to discuss these 
issues at today's hearing. 
Thank you, Mr. Chairman. 

MR. STEARNS.  And with that, the subcommittee is adjourned.  
[Whereupon, at 4:52 p.m., the subcommittee was adjourned.] 

SUBMISSION FOR THE RECORD BY CROSSAN R. ANDERSEN, PRESIDENT, 
ENTERTAINMENT MERCHANTS ASSOCIATION 


SUBMISSION FOR THE RECORD BY CYNTHIA MERIFIELD TRIPODI, EXECUTIVE 
DIRECTOR, PAUSE PARENT PLAY 



1     The views expressed in this written statement represent the 
views of the Commission.  My oral statement and responses to 
questions you may have are my own and are not necessarily those 
of the Commission or any individual Commissioner. 
2    The Federal Trade Commission is the federal government's 
principal consumer protection agency.  Congress has directed the 
Commission, under the FTC Act, to take action against "unfair or 
deceptive acts or practices" in almost all sectors of the economy 
and to promote vigorous competition in the marketplace.  
15 U.S.C.  45(a).  With the exception of certain industries and 
activities, the FTC Act provides the Commission with broad 
investigative and enforcement authority over entities engaged in, or 
whose business affects, commerce.  The FTC Act also authorizes the 
Commission to conduct studies and collect information, and, in the 
public interest, to publish reports on the information it obtains.  
15 U.S.C.   46(b) and (f). 
3   As indicated on its website, the ESRB is a "self-regulatory body 
established in 1994 by the Entertainment Software Association 
("ESA").  The ESRB independently assigns computer and video game 
content ratings, enforces industry-adopted advertising guidelines 
and helps ensure responsible online privacy practices for the 
interactive entertainment software industry." 
 http://www.esrb.org/about/index.jsp.	
4   The ESRB ratings have two parts: 1) rating symbols that suggest 
what age group the game is appropriate for; and 2) content 
descriptors that indicate elements in a game that may have triggered 
a particular rating and/or may be of interest or concern.  The ESRB 
system consists of the following rating symbols: EC (Early 
Childhood), E (Everyone), E10+ (Everyone 10 and older), T (Teen), M 
(Mature 17+), and AO (Adults Only 18+).  There are more than thirty 
different content descriptors, including Blood and Gore, Intense 
Violence, Lyrics, Mature Humor, Mild Violence, Nudity, Sexual 
Themes, Strong Language, Strong Sexual Content, Use of Drugs, and 
Violence.  See ESRB Game Ratings & Descriptor Guide, available at 
http://www.esrb.org/ratings/ratings_guide.jsp. 
5   See FTC Consumer Alert: Video Games: Reading the Ratings on 
Games People Play (July 2005), available at http://www.ftc.gov/bcp/conline/pubs/alerts/videoalrt.htm.   The 
Consumer Alert also explains how to decode ESRB's descriptors and 
provides parents with certain tips, such as "Adults who are 
concerned about the content of certain games may want to check them 
out by renting and playing them before giving the nod to youngsters 
in their household" and that parents can use the ESRB's website 
to "enter the name of a game to see its rating and the descriptions 
of its content."  This alert and other information useful for 
parents on the ratings systems for video games, movie and music are 
also available on the Commission's webpage on "entertainment 
ratings," available at http://www.ftc.gov/bcp/conline/edcams/ratings/ratings.htm. 
6   See Makers of Grand Theft Auto: San Andreas Settle FTC Charges 
FTC Alleged Companies Game Content Claims Deceptive, available at 
http://www.ftc.gov/opa/2006/06/grandtheftauto.htm.  The comment 
period ends on July 10, 2006. 
7    E.g., Interactive Digital Software Ass'n v. St. Louis County, 
Mo., 329 F.3d 954, 957-58 (8th Cir. 2003); James v. Meow Media, 
Inc., 300 F.3d 683, 696 (6th Cir. 2002). 
8    The Department of Justice provided the FTC with substantial 
funding and technical assistance to enable the FTC to collect and 
analyze public and non-public information about the industries 
advertising and marketing policies and procedures, and to prepare 
the Commission's written Reports.  The analysis and conclusions 
contained in these reports are those of the FTC.  
9    The Commission received information from numerous individual 
companies, as well as the Motion Picture Association of America 
("MPAA"), the National Association of Theatre Owners ("NATO"), the 
Recording Industry Association of America ("RIAA"), the National 
Association of Recording Merchandisers ("NARM"), the Entertainment 
Software Rating Board ("ESRB"), the Video Software Dealers 
Association ("VSDA"), the Interactive Digital Software Association 
("IDSA"), the Interactive Entertainment Merchants Association 
("IEMA"), and the American Amusement Machine Association ("AAMA"). 
10    Among those organizations were the American Academy of 
Pediatrics, American Psychological Association, Center on Media 
Education, Center on Media and Public Affairs, Children Now, 
Commercial Alert, The Lion & Lamb Project, Mediascope, National 
Institute on Media and the Family, National PTA, and Parents' Music 
Resource Center.  
11   The Commission's September 2000 Report is available online at: 
http://www.ftc.gov/reports/violence/vioreport.pdf. 
12   See September 2000 Report, Appendix F at 8,  http://www.ftc.gov/reports/violence/appendicesviorpt.pdf.  Appendix 
F also contains a detailed discussion of the underlying methodology 
and findings. 
13   See id. 
14   Marketing Violent Entertainment to Children: A Six-Month 
Follow-up Review of Industry Practices in the Motion Picture, 
Music Recording & Electronic Game Industries ("April 2001 Report"). 
The Commission's April 2001 Report is available online at:  http://www.ftc.gov/reports/violence/violence010423.pdf.  Marketing 
Violent Entertainment to Children: A One-Year Follow-up Review of 
Industry Practices in the Motion Picture, Music Recording & 
Electronic Game Industries ("December 2001 Report"). The 
Commission's December 2001 Report is available online at: http://www.ftc.gov/os/2001/12/violencereport1.pdf. 
15   Marketing Violent Entertainment to Children: A Twenty-One Month 
Follow-up Review of Industry Practices in the Motion Picture, Music 
Recording & Electronic Game Industries ("June 2002 Report"). The 
Commission's June 2002 Report is available online at: http://www.ftc.gov/reports/violence/mvecrpt0206.pdf.		
16   Marketing Violent Entertainment to Children: A Fourth Follow-up 
Review of Industry Practices in the Motion Picture, Music Recording & 
Electronic Game Industries ("July 2004 Report").  The Commission's 
July 2004 Report is available online at: 
http://www.ftc.gov/os/2004/07/040708kidsviolencerpt.pdf. 
17   See Major Retailers Announce New Campaign to Enforce Video Game 
Rating System, available at http://releases.usnewswire.com/printing.asp?id=24172 (Dec. 8, 2003). 
18	 See Undercover Shop Finds Decrease in Sales of M-Rated 
Video Games to Children, available at http://www.ftc.gov/opa/2006/03/videogameshop.htm.	
19   On March 30, the FTC published the second of two Paperwork 
Reduction Act notices seeking public comment on proposed consumer 
surveys on the video game rating system.  See 71 Fed. Reg. 16155 
(Mar. 30, 2006); 70 Fed. Reg. 56703 (Sep. 28, 2005). 
20   See FTC to Accept Complaints about Media Violence 
(Mar. 17, 2004), available at http://www.ftc.gov/opa/2004/03/mediaviolence.htm. 
21   About 60% of these complaints grew out of a coordinated 
campaign that encouraged  parents to complain about the marketing 
of a toy to young children that was based on a violent TV program. 
22   A "censor flag" that preceded the sex mini-game script code 
on the game disc acted as a kind of wrapper for that content.  When 
installed, the Hot Coffee program changed that censor flag from a 1 
to a 0 at the relevant point in the script code, effectively 
unwrapping the sex mini-game. 

24   See ESRB Concludes Investigation into Grand Theft Auto: San 
Andreas; Revokes M (Mature) Rating (July 20, 2005), available at 
 http://www.esrb.org/about/news/7202005.jsp. 
25    Take-Two reported that it incurred $24.5 million in costs 
associated with returns of San Andreas as a result of the re-rating. 
 See Take-Two Interactive Software, Inc., Annual Report (Form 10-K), 
at 24 n.6 (Jan. 31, 2006). 
26   However, these increased fines are not yet in effect. 
27   The July 25, 2005, resolution of the U.S. House of 
Representatives asking the Commission to investigate the marketing 
of Grand Theft Auto: San Andreas requested the FTC to determine if 
the companies had intentionally deceived the ESRB. H. Res. 376 
(July 25, 2006).  The Commission's published complaint contains no 
allegation that the companies intentionally misled the ESRB as to 
the content of the game when they submitted the game for a rating.  
Indeed, the relatively unpolished production qualities of the 
enabled mini-game, as well as technical bugs that arose in the game 
when the first version of the "Hot Coffee" program was released, show 
that the companies had abandoned development of that content before 
finishing it. 
28   A consent agreement is for settlement purposes only and does 
not constitute an admission of a law violation. When the Commission 
issues a consent order on a final basis, it carries the force of law 
with respect to future actions.  Each violation of such an order may 
result in a civil penalty of $11,000. 
1 Gentile, D.A., Paul Lynch, Jennifer Ruh Linder, & David Walsh. 
"The effects of violent video game habits on adolescent hostility, 
aggressive behaviors, and school performance. Journal of Adolescence 
27 (2004) 5-22. 
2 National Institute on Media and the Family. "Eight Annual Video and 
Computer Game Report Card" December 8, 2003. 
3 Anderson, C.A. & Brad Bushman, (2001) Effects of Violent Video 
Games on Aggressive Behavior, Aggressive Cognition, Aggressive 
Affect, Physiological Arousal, and Prosocial Behavior: A 
Meta-analytic Review of the Scientific Literature. Psychological 
Science, 12 (2001) 353-359. 
4 Walsh, DA. Why Do They Act That Way? A Survival Guide to the 
Adolescent Brain for You and Your Teen. New York: Free Press, 2004. 
5 Gallese, V. "The Roots of Empathy: The Shared Manifold Hypothesis 
and the Neural Basis of Intersubjectivity. Psychopathology 36 (2003) 
171-180. 
6 Philips, H. "Violent videdo games alter brain's response to 
violence," http://www.newscientist.com/article.ns?id=dn8449 (Accessed 
June 9, 2006)  159 (1) 


</pre></body></html>
